<html>
<title> - TRIBAL COLLEGES AND UNIVERSITIES</title>
<body><pre>[Senate Hearing 110-92]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 110-92
 
                    TRIBAL COLLEGES AND UNIVERSITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2007

                               __________

         Printed for the use of the Committee on Indian Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

34-906 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                  CRAIG THOMAS, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            PETE V. DOMENICI, New Mexico
DANIEL K. AKAKA, Hawaii              GORDON H. SMITH, Oregon
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARIA CANTWELL, Washington           RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           TOM COBURN, M.D., Oklahoma
JON TESTER, Montana
                Sara G. Garland, Majority Staff Director
             David A. Mullon, Jr., Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2007...................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Tester......................................    10
Statement of Senator Thomas......................................     3

                               Witnesses

Artman, Carl J., Assistant Secretary for Indian Affairs, 
  Department of the Interior.....................................     3
    Prepared statement...........................................     5
Gipp, Dr. David M., Past President and Board Member, American 
  Indian Higher Education Consortium; President, United Tribes 
  Technical College..............................................    14
    Prepared statement...........................................    17
Guy, Elmer J., President, Navajo Technical College; Board Member, 
  American Indian Higher Education Consortium....................    23
    Prepared statemaent..........................................    25
Keltner, Dr. Bette, Dean, School of Nursing and Health Studies, 
  Georgetown University..........................................    33
    Prepared statement...........................................    35
Merisotis, Jamie P., President, Institute for Higher Education 
  Policy.........................................................    27
    Prepared statement...........................................    29

                                Appendix

Conrad, Hon. Kent, U.S. Senator from North Dakota, prepared 
  statement......................................................    45


                    TRIBAL COLLEGES AND UNIVERSITIES

                              ----------                              


                        THURSDAY, APRIL 12, 2007

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
485, Senate Russell Office Building, Hon. Byron Dorgan, 
Chairman of the Committee, presiding.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will call the hearing to order. I will be 
joined momentarily by Vice Chairman Thomas.
    Because of impending votes this morning in the U.S. Senate, 
I want to begin on time and I don't want to have a lengthy 
recess for votes and inconvenience witnesses.
    I want to thank Mr. Artman for being here. This is Carl 
Artman's first appearance before the committee since being 
confirmed as assistant secretary for Indian Affairs. We very 
much appreciate his being here. We appreciate the other 
witnesses as well.
    Senator Thomas, I just began as the buzzer started for the 
Senate. I pointed out that we have votes this morning, and I am 
hoping to get through the witnesses and hear their testimony 
before we have to have a lengthy recess for votes. I know that 
we also have an Energy Committee meeting concurrent with this. 
So forgive me for banging the gavel on time.
    Senator Thomas. That is fine.
    The Chairman. I want to make a brief opening statement to 
try to set the stage for this discussion, which I think is very 
important.
    The purpose of today's oversight hearing on tribal colleges 
and universities is to receive testimony that will instruct us 
in amending the Tribally Controlled College or University 
Assistance Act of 1978. The Senate Committee on Health, 
Education, Labor and Pensions is currently drafting a bill to 
reauthorize the Higher Education Act of 1965. The Tribally 
Controlled College or University Assistance Act of 1978 is 
included under Title III of the Higher Education Act. We have 
been working closely with the HELP Committee to ensure that 
amendments requested by tribal colleges and universities and 
considered by us are included in this session's reauthorization 
bill.
    So today we will hear from the Department of the the 
Interior responsible for providing grants for 26 tribally 
controlled colleges, funding to two post-secondary career and 
vocational technical institutions, and directly operating two 
tribal colleges.
    We will receive testimony from others, including David 
Gipp, President of the United Tribes Technical College, and 
Elmer Guy, President of the Navajo Technical College in Arizona 
and New Mexico. Jamie Merisotis of the Institute for Higher 
Education Policy will share with us recent quantitative and 
qualitative analysis and research into Indian higher education.
    I have long been a strong supporter of tribal colleges and 
universities because I believe they benefit the community and 
the individual student substantially. In many cases, the only 
kind of higher education that would be available to some of 
these students is the higher education that is available in 
their community where so many other extended family 
opportunities are available for child care and support for 
these students, many of whom are non-traditional students.
    I have put up a map that shows there are 34 tribal colleges 
and universities throughout the United States. There are five 
tribal colleges in my State. They offer a wide range of 
accredited programs from business administration to nursing, 
and many in between.
    In addition to college level programming, tribal colleges 
and universities also offer high school completion GED 
programs, job training and college preparatory courses as well. 
They are an essential part of their communities, often serving 
as community centers, libraries, tribal archives, career and 
business centers, and much, much more.
    If I might have a photograph put up, a photograph of the 
Oglala Lakota College in Kyle, SD. It has a unique 
decentralized campus system featuring college centers in each 
of the nine districts of the Pine Ridge Reservation. That 
allows students to stay in touch with their communities and 
still attend college. It is a very unique and interesting 
college that I wanted to bring to your attention. It offers 
bachelor's and master's degrees. It has produced 71 percent of 
the elementary education teachers who teach on the reservation, 
and 76 percent of the nurses.
    About 28,000 American Indian and Alaska Native students are 
served by these tribal colleges. As I have indicated, it is 
critically important to their lives and to their opportunity 
for higher education. Let me just show a couple of quick 
photos. This is a photo of Joey Awanopei, a student from the 
College of the Menominee Nation in Wisconsin. He is a 
traditional Menominee family member, remained rooted in their 
language, culture and beliefs.
    He and his brothers were traditionally raised by their 
grandparents in a small remote town on the Menominee 
Reservation. Joey has earned an associate's degree from a 
tribal college. His goal is to be a certified teacher in a 
tribal school, and a positive Indian male role model. He plans 
to earn a bachelor's degree. In the meantime, he has obtained 
certification as a traditional Menominee speaker and a middle 
school language teacher. What a wonderful inspiration.
    Here is one additional photograph of Nikki Smoker. In her 
early forties, if we could put that chart up, she has dealt 
with personal tragedies that would crush most people. In the 
past few years, she has lost a 16-year old daughter to heart 
failure, a 20-year old son to a car accident, and her husband 
of many years to cancer. She is a grandmother to many, raising 
many foster children and children of extended families. At one 
point, she had 15 people living in her four bedroom home. Her 
home is always open to people of need.
    Even as she has cared for others, she has attended tribal 
college and received a certificate in tribal law and justice 
from Fort Peck Community College in Montana. And now she plans 
on attending a 4-year university. Again, she is an inspiring 
story, and I do that only to point out that this is about 
individuals with interests in improving their lives and getting 
a better education. Tribal colleges allow that opportunity to 
exist. For those reasons, I strongly support the tribal college 
system.
    Let me call on my colleague, Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.

                STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Welcome, Mr. Artman. Glad to have you here.
    I think certainly the tribal colleges are an opportunity 
for tribal members to develop skills and gain education that is 
especially important. These opportunities include the tribal 
colleges for economic development, for energy and 
entrepreneurial tracks. We are looking forward to that in 
Wyoming, as a matter of fact, and starting to establish a 
startup college there. There are lots of opportunities for 
things that we haven't yet been able to take advantage of.
    So we just obviously need to be more prepared for 
competitiveness in this century, and these are the kinds of 
things that would help there.
    So I welcome the witnesses and I am glad we are having this 
hearing, and I certainly support the tribal college program.
    The Chairman. Senator Thomas, thank you very much.
    Assistant Secretary Artman, thank you for being here. We 
will include the full statements of all of the witnesses today 
as a part of the permanent record of the Committee. We would 
ask that you summarize.
    Again, welcome on your first occasion back as Assistant 
Secretary. You may proceed.

  STATEMENT OF CARL J. ARTMAN, ASSISTANT SECRETARY FOR INDIAN 
              AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Artman. Thank you, Mr. Chairman. Thank you, Mr. Vice 
Chairman and Members of the Committee.
    I will just hit a few salient points in these opening 
comments.
    I am pleased to be here today to speak about post-secondary 
tribal education, as I served on the President's Board of 
Advisors for Tribal Colleges and Universities (TCU) from 2002 
to 2006. This is an area of great importance to me.
    The Bureau of Indian Education (BIE) is committed to 
improving the overall quality of our education system. The BIE 
system includes two post-secondary institutions: Haskell Indian 
Nations University and the Southwestern Indian Polytechnic 
Institute.
    The BIE also administers grants to 25 tribal colleges and 
universities. In addition, the Department of Education provides 
funds to improve and strengthen the academic quality, 
institutional management, and fiscal stability of eligible TCU.
    Each year, our system serves approximately 46,000 Indian 
students in grades K-12, and we are striving to support a 
seamless education program from early childhood through 
adulthood by providing safe, secure and healthy learning 
environments that promote academic achievement and successful 
student transition to post-secondary education.
    This summer in Denver, CO, on July 24-26, the BIE will hold 
its first National Partnership Conference to promote 
collaboration and cooperation with the various stakeholders of 
the BIE education system. The goal of the conference is to 
better use available stakeholder resources to support student 
achievement. The American Indian Higher Education Consortium, 
AIHEC, will be representing the TCU and is a key conference 
partner focusing on student transition to post-secondary 
education.
    Just a brief overview. Looking at the TCU operations 
funding, appropriations for TCU have increased approximately 45 
percent in the past 15 years, with authorized appropriations 
for tribal colleges remaining relatively steady over the past 3 
years. TCU student enrollments have increased and the number of 
tribal colleges funded under the Tribally Controlled Community 
Colleges Assistance Act have grown from only a few in the early 
1980s to 25 as of Fiscal Year 2007.
    Funding is limited to a one school per tribe basis, using a 
formula that funds each TCU based on the full-time student 
equivalency rate. Currently, the act is funded at $54 million 
for operating grants.
    With regards to the Endowment Program, included in the act 
is a provision for endowments at TCU. Each year, based on the 
availability, TCU may receive endowments from the BIE which 
are, in turn, matched by the TCU at one-half of the 
Government's contribution and placed in a restricted interest-
bearing account. Interest received from that account can be 
used by the colleges to defray the expenses of running the 
college. The BIE has funded close to $8 million in endowments 
to TCU since 1999.
    Technical assistance is another provision of the act. By 
election and resolution of the tribal colleges, AIHEC currently 
receives the technical assistance funds in the amount of about 
$600,000 per year to provide various technical assistance 
services to TCU. Since 1999, just under $2 million has been 
provided for technical assistance to the TCU.
    In an effort to monitor and promote the success of the 
program, the BIE maintains an ongoing collaboration with AIHEC 
and the White House Initiative on Tribal Colleges and 
Universities. This efforts helps ensure that TCU receive 
adequate support to carry out their mission. As part of its 
annual plan, AIHEC provides the BIE with a progress report each 
year, as well as a description of the continuing efforts made 
on behalf of TCU.
    The Honors Program. Most recently, we have sought out the 
help of tribal colleges to implement what we are calling our 
Honors Program, a program designed to hire top Indian students 
into Indian Affairs. This is broken into three levels: High 
school, junior college, community college, and then college, or 
university. Graduates can be appointed directly into the Indian 
Affairs positions. Our BIE and Human Resources Office are 
working with three tribal colleges to provide opportunities for 
students attending these colleges to earn class credits, while 
developing marketing plans to advertise the program and its 
benefits to Indian students.
    In terms of economic development, Indian Affairs supports 
other initiatives such as our recent partnership with Colorado 
School of Mines, United Tribes Technical College, and the 
Navajo Technical College to develop an energy-oriented 
curriculum for Indian colleges. Our Office of Indian Energy and 
Economic Development provided a grant to CSM to develop a 
curriculum in partnership with UTTC and NTC. CSM will provide 
faculty training and will team-teach some of the course. They 
will be retained as technical support in later years.
    Internship opportunities are being established with energy-
focused companies, and we hope to create opportunities for high 
performing students to transfer into a full 4-year program at 
CSM.
    On related matters, I had the opportunity yesterday to meet 
with Nick Lowery, the acting chair of the National Fund for 
Excellence in American Indian Education. I am happy to report 
that we made progress at this meeting. I expect that we should 
be able to help the Fund achieve its milestones. Some of the 
issues discussed included supplementation of personnel during 
the startup phase, a commitment to more frequent communications 
regarding the progress and the needs of the Fund, and working 
with the Fund representatives to facilitate the transfer of 
bequeathed moneys from OST to the Fund.
    The National Fund provides an important component to the 
overall Indian education picture, and I look forward to helping 
it achieve its goals.
    Mr. Chairman, Mr. Vice Chairman, and Members of the 
Committee, I want to thank you for inviting me to testify here 
today. I look forward to your questions.
    [The prepared statement of Mr. Artman follows:]

 Prepared Statement of Carl J. Artman, Assistant Secretary for Indian 
                  Affairs, Department of the Interior
    Good morning, Mr. Chairman, Mr. Vice Chairman, and Members of the 
Committee. My name is Carl Artman and I am the Assistant Secretary for 
Indian Affairs at the Department of the Interior. I am pleased to be 
here today to speak about post-secondary Indian education. This is a 
topic of great interest to me. From 2002 to 2006, I served on the 
President's Board of Advisors on Tribal Colleges and Universities.
Background
    The Bureau of Indian Education (BIE), formerly the Office of Indian 
Education Programs within the Bureau of Indian Affairs, is committed to 
improving the overall quality of our education system. The BIE is a 
unique system which includes 184 elementary and secondary schools 
located across 23 states--66 of these schools include residential 
components (dormitories) and two post-secondary colleges: Haskell 
Indian Nations University and the Southwestern Indian Polytechnic 
Institute. The BIE also administers grants to 25 Tribal Colleges and 
Universities (TCU). In addition, the Department of Education provides 
funds to improve and strengthen the academic quality, institutional 
management, and fiscal stability of eligible TCU.
    Each year our system serves approximately 46,000 Indian students in 
grades K-12. We are striving to support a seamless education program 
from early childhood through adulthood by providing safe, secure, and 
healthy learning environments that promote academic achievement and 
successful student transition to post-secondary education.
    We must improve our overall high school graduation rate and we also 
need to better prepare our students academically so they have the 
option of continuing their education at the post-secondary level. In 
meeting the workforce needs of the 21st century, nearly 90 percent of 
the fastest growing jobs in this country require post-secondary 
education. TCU provide for many of our students the next step in that 
educational development. However, before students can move on to 
college course work, they must acquire foundational knowledge in math, 
science, and language skills. We want to work more collaboratively with 
our TCU partners to identify better ways to better prepare our students 
for college course work. This could include ``student enhancing'' 
efforts of bridging programs and individualized tutoring services.
    This summer in Denver, Colorado (July 24-26, 2007), the BIE will 
hold its first national partnership conference to promote collaboration 
and cooperation with the various stakeholders of the BIE education 
system. The goal of the conference is to better use available 
stakeholder resources to support student achievement. The American 
Indian Higher Education Consortium (AIHEC), representing the TCU, is a 
key conference partner focusing on student transition to post-secondary 
education.
Overview of TCU Program Functions
TCU Operations Funding
    Our elementary and secondary education programs use 90 percent of 
the BIE's total budget. Appropriations for TCU have increased 
approximately 45 percent in the past 15 years with the authorized 
appropriations for tribal colleges remaining relatively steady over the 
past 3 years. TCU student enrollments have increased and the number of 
tribal colleges funded under the Act has grown from only a few in the 
early 1980s to 25 as of FY 2007. Funding is limited to a one-school-
per-tribe basis, using a formula that funds each TCU based on a full-
time student equivalency.
    The BIE's primary function in implementing the Act has been 
historically more administrative than service-oriented. These functions 
include collecting and reviewing applications for eligibility to 
receive TCU operating grants, ensuring that funds reach the tribal 
colleges, and ensuring tribal colleges receive necessary technical 
assistance required to fulfill their commitment under the Act. The BIE 
carries out its responsibility to the TCU by administering the 
appropriated funds intended to defray expenditures for academic, 
educational and administrative purposes, and for the operation and 
maintenance of the tribal colleges.
    Currently, the Act is funded at $54 million for operating grants. 
In 2007 the BIE is administering operating grants to 25 Tribal Colleges 
and Universities. In 2006, these schools offered over 350 degree 
programs and 180 vocational programs. During 2006, the TCU served 
27,897 Indian students and conferred 1,298 degrees and certificates.
Endowment Program
    Included in the Act is a provision for endowments to TCU. Each 
year, based on availability, TCU may receive endowments from the BIE, 
which are in turn matched by the TCU at the rate of one-half of the 
government's contribution, and placed in restricted interest-bearing 
accounts. Interest income received by the colleges is available to the 
college to supplement and further defray the expense of running the 
college. The BIE has funded close to $8 million in endowments to TCU 
since 1999.
Technical Assistance
    Technical Assistance (TA) is another provision of the Act. By 
election and resolution of the tribal colleges, the American Indian 
Higher Education Consortium (AIHEC) currently receives the TA funds in 
the amount of $600,000 to provide various technical assistance services 
to TCU. Since 1999, just under $2 million has been provided for TA to 
TCU.
    In an effort to monitor and promote the success of the TA program, 
the BIE maintains ongoing collaboration with the AIHEC and the White 
House Initiative on Tribal Colleges and Universities (WHITCU). This 
effort helps to ensure that TCU receive adequate support to carry out 
their mission. As a part of its annual plan, AIHEC provides the BIE 
with a progress report each year as well as a description of the 
continuing efforts made on behalf of the TCU.
    Collaboration requires ongoing interaction to be productive and 
successful. The BIE participates in meetings with the WHITCU Advisory 
Board members, the Tribal Colleges and Universities Annual Presidents' 
Planning Session sponsored by AIHEC, and the National 2007 Summer 
Conference. AIHEC is one of the partners for this conference.
Honors Program
    Most recently, we have sought out the help of the tribal colleges 
to implement the Honors Program--a program designed to hire top Indian 
students into Indian Affairs. The Honors Program is designed to provide 
opportunities at three educational levels--High School, Junior/
Community College, and College/University. Graduates can be appointed 
directly into available Indian Affairs positions. Our BIE and Human 
Resources Office are working with three tribal colleges to provide 
opportunities for students attending these colleges to earn class 
credits while developing marketing plans to advertise the program and 
its benefits to Indian students and Indian Affairs management.
BIE's Adult Education (Tribal)
    Indian Affairs is implementing strategies to support our vision of 
``life-long learning'' and to improve the literacy of American Indians 
residing on reservations. The BIE's Adult Education Program is funded 
at $2,441,000, and allows tribes to direct their Tribal Priority 
Allocation funds to adult learning situations where adults are able to 
obtain a GED or gain the basic skills they need to transition into a 
community or tribal college and/or job placement. Oftentimes, students 
attending tribal colleges and universities require remedial education 
in basic math and reading skills. This program provides educational 
opportunities for individuals who lack the level of literacy skills 
necessary for a smooth transition into post-secondary education. 
Graduation rates for American Indians are currently lower than the 
national average; the program supports the advancement of students to 
higher levels of education. Participation in adult basic education, 
community education, and developmental courses leads to upgraded skills 
and abilities to match job placements with community members, thus 
creating opportunities for developing stronger local economies in 
Indian communities.
Tribal College Teacher's Aide Training
    Indian Affairs has requested program enhancement funds of over $5 
million to support initiatives such as the Teacher's Aide Training 
program, consistent with the provisions of the No Child Left Behind Act 
(NCLB), which provides for the Qualifications for Teachers and 
Paraprofessionals. The BIE-funded TCU play an important role in 
developing specialized certification programs for current, new, and 
potential teacher aides for Indian schools. Programs can develop the 
training through distance learning or classroom instruction, with local 
or regional concentration and emphasis, following the ``grow your own'' 
philosophy. Indian schools located in remote and isolated areas often 
rely on members who have a vested interest in their communities and 
wish to remain in jobs on the reservations.
    Of the 25 TCU, 15 provide at least an Associate's degree in 
elementary education, two are identified as having teacher's aide 
programs, and the remaining TCU have classes in early childhood 
education and/or development.
Other Tribal College Projects--Partnering With Economic Development
    Indian Affairs supports other initiatives such as our recent 
partnership with the Colorado School of Mines (CSM), the United Tribes 
Technical College (UTTC), and the Navajo Technical College (NTC) 
(formerly Crown Point Institute of Technology) to develop energy, 
educational, vocational, and technology curriculum for Indian colleges. 
Our Office of Indian Energy and Economic Development (IEED) provided a 
grant to CSM to develop a curriculum in partnership with UTTC and NTC. 
The CSM will provide faculty training and will team-teach some portions 
of the curriculum; they will also be retained as a future source of 
technical expertise for the colleges. Internship opportunities will be 
established with energy industries and we will create opportunities for 
high performing students to transfer into a full 4-year degree program 
at the CSM. We are looking at additional opportunities to expand on 
this initiative.
Conclusion
    With high unemployment rates in Indian Country, solidifying the 
tribal colleges' infrastructures is critical. Increased collaboration 
and partnerships between TCU and federal, state, regional and local 
entities must be established in a manner that addresses specific needs. 
Education and workforce development will lead to local employment 
opportunities where tribal members can reinvest in a sustainable local 
economy. Education must provide not only a seamless process of 
continuing lifelong educational opportunities, but the necessary skill 
sets for our Indian communities to offer a vibrant labor pool which 
will lead to economic growth for all Indian people.
    The challenges as well as benefits are shared by all. In order to 
promote change, vested parties must establish economic development 
plans that involve potential business and industry opportunities, 
tribal college administrators, community-planning officials, and 
various federal, state, regional, local and tribal governments.
    Mr. Chairman, I want to thank you for inviting me to testify today 
on such an important issue for our Indian people. I will be happy to 
answer any questions you may have.

    The Chairman. Secretary Artman, thank you very much for 
your willingness to provide leadership at this important time.
    Let me ask an obvious question, I guess, and that is, with 
flat funding, which is where we are with tribal colleges on the 
appropriations side, and a circumstance where the tribal 
colleges are already substantially below the amount of 
contribution per student that goes to, for example, junior 
colleges, and community colleges, and so on, are we not going 
to lose ground rather than gain ground if we only have flat 
funding and don't provide at least for inflation with respect 
to the tribal colleges appropriation? What is your sense of 
that?
    Mr. Artman. Right now, the BIE and my office are core-
focused on K-12 education. We are striving to, as I mentioned 
in the testimony, to provide a seamless transition. So we are 
trying to make the most of the funds that we do have outside of 
that K-12 core focus, to get that into the TCU hands. There 
have been fluctuations in funding, but we are working with the 
Department of Education and others to make sure funds get 
there.
    We are looking at partnership opportunities with 
industries, to provide careers and perhaps other additional 
funds to the schools. We are working with schools like the 
Colorado School of Mines and similar opportunities perhaps to 
that in other areas as well, to provide additional funds, to 
amortize the costs to these tribal colleges and universities.
    As I mentioned, it is a very important program to us, but 
we do have to do with what we have and focus on our core 
mission.
    The Chairman. Well, I understand making do with what we 
have, but if tribal college enrollment is increasing and we 
have flat funding, that, it seems to me, will be a problem, 
especially if we believe that the tribal college system 
contributes a great deal to the lives of these people that now 
have opportunities to get educated in their tribal colleges.
    So we will have to work on that and talk about that, but 
there is an enrollment increase and it reflects the popularity 
of the opportunity that is available now that was not available 
many years ago.
    With respect to K-12, we have had the GAO do an evaluation 
of the condition of the infrastructure with respect to the BIA 
schools and so on. What the GAO has shown is that there is a 
significant problem with respect to the infrastructure 
investment that is needed that is not available to bring those 
schools up to standard. Do you have any observations about what 
your plans are, or what the Department of the Interior's plans 
are with respect to that?
    Mr. Artman. The GAO report is enlightening. Last week, I 
was down in New Mexico and visited Laguna Pueblo. I had an 
opportunity to take a look at their elementary school. You can 
see stark examples of where facilities moneys are desperately 
needed. In their case, there were a number of cracks in the 
foundation that went up through the walls. They have supported 
it now. They have taken mitigation measures, but that is a good 
example.
    This is an area of great importance to us. What we have 
done is, with our facilities manager, he has been able to 
develop priorities and processes. He is expediting the funds 
that are getting to the schools. I think what we have now is 
not everything will be fixed immediately, but we now have a 
schedule that we can look to, and we can point to say that this 
school will be fixed in this particular year if funding stays 
at the same level. That is what we are focused on.
    We have eliminated a lot of bureaucracy and we have given 
some assurance to the schools that are out there that need the 
funds when they will get the funds.
    The Chairman. As you begin your work in these areas, would 
you work with us to give us an analysis? The GAO didn't do it 
institution by institution, but it evaluated the circumstances 
that existed with respect to the BIA-run schools and the 
infrastructure needs, and the fact that these children are 
going to schools that are in pretty substantial disrepair in 
some cases. Can you work with us to give us an analysis of what 
are the institutions? Where are they? What is the schedule? How 
long would it take to make the investments?
    The reason I ask the question is, you walk into a school 
that is in substantial disrepair, with a student sitting in a 
classroom with 30 kids; desks one inch apart. I went into one 
school that I have talked about with 150 kids, two toilets, one 
water fountain, crowded classrooms. That young kid that walks 
through that third grade classroom isn't going to get the same 
education as a kid that is in another school where there are 15 
students and new facilities, or facilities at least not in 
disrepair.
    So could you give us an analysis as you begin to work on 
all of this? What are the specific schools? What are the needs? 
What is the time line? How do you see us beginning to address 
them so that we can talk about it more in the specifics with 
the appropriators and others, rather than just the abstract?
    Mr. Artman. I would be happy to do that.
    The Chairman. Would you be willing to do that?
    Mr. Artman. Mr. Chairman, yes.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    You mentioned this matter of the National Fund for 
Excellence in Indian Education. Why hasn't that money been 
transferred?
    Mr. Artman. There have been a number of legal issues 
surrounding that money. Yesterday, we had a good opportunity to 
hash through some of those legal issues and come to some 
resolution on that. We committed to having an opinion to them 
on the legal implications, the legal liability attached to that 
money to the National Fund within a month. We are going to be 
working with their legal counsel in developing that opinion as 
well.
    Senator Thomas. Good, very good.
    Technology obviously is most important for preparing 
students for this century. I have been told that Haskell 
doesn't even have internet services in the student dorms. Why 
isn't there more emphasis on improving those technological 
services?
    Mr. Artman. Technology, especially in today's educational 
world, is an important part of education. If at home or at 
school, the more opportunity students get to use technology, 
the more they will be able to adapt to the workplace. 
Specifically with regard to Haskell University and Internet 
access, Internet access is available in the common areas of the 
dorms there. It is available in the individual student rooms, 
but it is very much like cable television. If they want it 
outside of the common areas, they need to subscribe to it at 
this point in time.
    Senator Thomas. You mentioned the Colorado School of Mines 
affiliation. Isn't it a good idea to have more of that? 
Couldn't there be opportunities to be affiliated with other 
colleges to increase the opportunities through these 
affiliations?
    Mr. Artman. I think so, Mr. Vice Chairman. The Colorado 
School of Mines examples dovetails extremely well with also our 
goals in economic development focusing on the energy aspect of 
that. I think you are going to see more partnerships coming out 
and created in the area of dovetailing with medical schools 
that may have excellent educational opportunities in the 
medical profession, or teaching in the teaching area. So yes, 
we are going to be taking more advantage of those situations.
    Senator Thomas. We don't have many of these facilities in 
Wyoming. We just have one small college kind of beginning, but 
they are close to a community college. And even in that 
instance, it seems as if they could pick up some additional 
things.
    Funding, of course, is always an issue. What about tribal 
colleges participating in State and private funding and other 
kinds of ways of helping finances? Is there an opportunity 
there?
    Mr. Artman. I think there is. I think you are seeing that a 
lot of tribal colleges are taking advantage of those situations 
and looking for new opportunities. Depending upon which college 
you are talking about, the funds that come from the BIE fund 30 
percent to 60 percent of the needs of the tribal colleges. So 
tribal college presidents are looking to other resources out 
there.
    Having had the opportunity to work with some of these 
presidents before, they are an extremely smart and resourceful 
group of individuals who are doing yeoman's work in making 
their colleges work. I know that they are looking to other 
opportunities. To what degree that we can help facilitate that, 
we will put ourselves out there.
    Senator Thomas. That is great.
    I think Indian colleges are important because they focus on 
what we want to have accomplished here, but they can certainly 
gain more quickly by affiliating themselves with some other 
organizations to help in funding programs.
    So thank you, Mr. Chairman.
    The Chairman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    Thank you for being here today, Carl.
    Over the Easter break, I had a tribal college summit, 
interestingly enough. It is fair to say that we have our work 
cut out for us to hopefully address some of those needs.
    I just want to start with a comment. One of the individuals 
that came and visited with us talked about the K-12 issue. 
Potentially, maybe we could have him here someday to be on a 
panel here talking about at-risk kids. He told me that his 
figures are showing pretty much across the United States, but 
in Montana I can tell you that almost every at-risk kid in that 
State is Native American. The lines are so clear that it is 
scary.
    Interestingly enough, those Native American kids that 
happen to be in school districts that tend to be more affluent 
are at risk. Those kind of things, they are challenges that we 
have to deal with here to try to allow everybody to be the best 
they can be.
    But one of the things that was talked about at the summit 
that I didn't hear you speak about a lot in relationship to 
tribal colleges is building funds, funds for buildings. There 
are tribal colleges, for example, that want to set up dorms for 
their college students. What is your assessment of availability 
of building funds out there in regards to tribal colleges?
    Mr. Artman. Senator Tester, with regard to the specific 
amount available for building funds, I would have to look into 
that and get back to you, sir, and I will do that. Through our 
endowment funds, the interest that is received off of those 
accounts, and that has been a varying amount, so I am not 
saying that that is going to be the fund that saves it, but 
that is available to use for building funds.
    As you know, the grants that come from the BIE to tribal 
colleges under 471 come with some restrictions on it, which may 
or may not allow them to be used for building purposes. But I 
will be happy to look into that and get back to you with the 
number.
    Senator Tester. I would like to know. And with the number, 
would you give me, if you have this, Carl, and you may or may 
not, some sort of assessment of the need out there versus what 
is there. Because we happened to be in the facility on the 
Blackfeet Reservation. They have some great facilities there. I 
have been just about in every tribal school, and there are some 
building needs there. But their overall classrooms, at least in 
Montana, are fairly impressive from my perspective. But there 
are some needs out there for research facilities, science labs, 
and dormitories that they don't have, for sure, and there may 
be others, too.
    That is it. Thank you, Mr. Chairman.
    Mr. Artman. Thank you, Senator.
    The Chairman. Thank you very much.
    Mr. Secretary, let me also say that Mr. Lowery on behalf of 
the National Fund for Excellence in American Indian Education 
met with me the day before yesterday to talk about those 
issues. I am pleased that you are working on that because as 
you know it is a federally chartered organization that has not 
yet been given an opportunity to really get started. I know 
that the Secretary had indicated that they would provide some 
space and perhaps some clerical assistance. They are interested 
in trying to determine when that which has been contributed to 
the Department of the Interior from estates and so on that 
could be used in this 501(c)(3) that has been federally 
chartered, when that might be transferred to them.
    So I appreciate the fact that you are working on that. I 
think that, using private sector funds that are donated into 
this federally chartered organization, it can also be an 
important supplement for Indian education. So your work on that 
is important, and I appreciate that.
    Let me make another point here that is important to 
emphasize. Tribal colleges are different. They are different 
because in most cases they are on Federal trust lands. State 
governments have their own circumstances. They have no 
obligation to fund tribal colleges and they by and large do 
not. There are no local property taxes or no local property 
base on which to levy taxes. So you can't support the tribal 
colleges that way.
    That is why we have this different system to fund tribal 
colleges. They are very important in the lives of Native 
Americans. I have spoken about many of them. I have showed a 
couple of photographs today of them, that are inspiring because 
they in many cases are non-traditional students. I told you, 
Mr. Artman, about speaking at a tribal college, and asking at 
the graduation ceremony at that tribal college, who is the 
oldest one here. And they said, she is the oldest one; and I 
went and talked to her; 40 some years old, who had been 
cleaning the toilets and the hallways in the college; a single 
mother of four who decided, I want to do more than clean the 
hallways and clean the bathrooms; I want to graduate.
    And the day I showed up, she was wearing a cap and a gown 
and a big smile because she had graduated from that college. 
She could not have done that except for the tribal college, 
because she had relatives that could provide child care. She 
could continue to do some work, and at her home area go to a 
tribal college. It is the only way this woman got a college 
degree.
    That is happening all over the country in ways that are 
very inspiring. It is why I care so much about these tribal 
colleges. We have to have adequate funding. I gently asked you 
about the funding because I know what you will do. You are 
brand new to this job, but you are so practiced, as have to be 
all of the witnesses from the Administration. If I ask you a 
lot of drilling questions about funding, you come here and have 
to support the President's budget. If you didn't, when you get 
back to your office, they will clean out your desk.
    So when I ask you the question: Is level funding adequate? 
You are going to dance around a little bit because that is your 
job. But you and I know, it is not adequate. If they have more 
people coming into these tribal colleges, and we have flat 
funding, and by the way, were it not for myself and a couple of 
others, we wouldn't be at $54 million. We would be at $40 
million or $42 million. But flat funding means that with the 
ravages of inflation and more students, which is not a ravage, 
but is a blessing, but we are losing ground, not gaining 
ground. The contribution per student to tribal colleges 
relative to other colleges is at a very low level.
    So my point is this, Mr. Artman. You can't answer the 
question the way I would hope you would or the way that we 
might if we were having a quiet conversation in a corner, and 
not in a Senate hearing, and I asked the question, are we 
adequately funding tribal colleges. You can't answer it, so I 
won't ask it quite that way today. But I will say this to you, 
I hope that you will be a missionary inside the Department of 
the Interior for these issues of education, health care and 
housing. With respect to education, it is a labyrinth of 
issues, but today we are talking about tribal colleges.
    That is the one area, and I think Senator Tester put his 
finger on it, where you come away inspired. You go to these 
places. You talk to these students. You find out what they have 
been confronting in life, and all of a sudden they are in 
college. They are so unbelievably proud of that opportunity to 
go to college and make something of themselves, because they 
know that is the step up and out to opportunity.
    So I really want you to be aggressive on these issues in 
working with us. I can say what you can't say. We need to fund 
these in a manner that is fair. We need more funding when we 
have more students. We need to support these students the right 
way because these tribal colleges are critically important.
    So you may want to respond to that, Mr. Artman, but don't 
get yourself in trouble.
    [Laughter.]
    Just tell me that you are interested in working with myself 
or Senator Thomas or Senator Tester and others to accomplish 
these goals. That would be helpful.
    Mr. Artman. I have been to a number of tribal colleges out 
there. In fact, Sitting Bull College in your State, I have been 
there before and know very well the former president of Sitting 
Bull College, Ron His Horse Is Thunder. He and I have had 
numerous discussions about the issues and needs there. I have 
been down to the Tohono O'odham Community College, and of 
course spent time at Haskell and less time at Sippy, but I want 
to spend more time down there as well, and others. They are 
doing inspirational work. The teachers and the administrators 
are doing excellent work down there. You are right about the 
students and their faces. You can see the pride and the 
determination in their faces. I look forward to working with 
you and the Committee on this issue.
    The Chairman. I am hoping at long last that the 
Administration, and with your help probably inside as an 
agitator, that inside we will probably see in the next budget 
that the United Tribes Technical College, which serves tribes 
all around this Country and is in my judgment, and we will have 
a witness in the next panel, is just an unbelievably good 
school, and has been left out of the President's budget. I hope 
that you will be able to help us change that.
    I talked to the previous Secretary, not the current 
Secretary. She even went there. She understands, but she for 
some reason through the OMB and the thickheadedness of people 
there, was saying we are not going to fund that school. It 
should be funded. It was always funded previously.
    Anyway, we will talk about that as well. The United Tribes 
Technical College is a terrific institution and is providing 
hope to a lot of students.
    It has been a long time, 2 years, that the position of 
assistant secretary was vacant. That was shameful, but we now 
have someone there that is, in my judgment, well qualified. I 
worked hard to try to get your nomination through the Senate.
    Mr. Artman. I appreciate that.
    The Chairman. Senator Tester did the same. Senator Thomas 
did the same. You are now there, and I know you want to be 
there to make a difference. We want to help you make a 
difference. So we appreciate your being here today on this 
subject. We are going to see a lot of each other on these 
issues because we face some very serious challenges, Mr. 
Secretary. We are glad that you have this role to play now and 
we want to help you be successful.
    Mr. Artman. Thank you, Mr. Chairman and Senator Tester.
    The Chairman. Thank you very much for being with us.
    We will next hear from a panel that includes Dr. David 
Gipp, past President and Board Member of the American Indian 
Higher Education Consortium, and currently President of the 
United Tribes Technical College in Bismarck, ND; Elmer Guy, 
Board Member of the American Indian Higher Education Consortium 
and President of the Navajo Technical College in Crownpoint, 
NM; Jamie Merisotis, and I hope I have pronounced that 
correctly, Jamie, who is President of the Institute for Higher 
Education Policy, Washington, DC; and Dr. Bette Keltner, Dean, 
School of Nursing and Health Studies at Georgetown University.
    Mr. Artman, I did not invite you to, and I should have 
identified I guess it was Dr. Keltner sitting next to Mr. 
Artman.
    Ms. Keltner. Yes.
    The Chairman. OK. So we are fine.
    Let me thank all four of you for being here. We have Board 
Members who are accompanying Elmer Guy: Caroline Tom, the 
Chairman of the board. Caroline, where are you? Thank you very 
much for being with us. Steve Grey? Steve, thank you for being 
with us. I want to recognize also before I begin with this 
panel, Chairwoman Myra Pearson, the Chair of the United Tribes 
Board. Myra, thank you very much for being with us. We 
appreciate your presence today.
    Why don't we begin, Dr. Gipp, with you? My understanding is 
that next month will mark 30 years as president of the United 
Tribes Technical College. I don't want to make you sound like 
Gabby Hayes or something, but 30 years is a long time.
    [Laughter.]
    The Chairman. But more than just the United Tribes 
Technical College, you have been a real leader in education in 
this Country. We appreciate your being here and appreciate your 
work on Indian education.
    Let me ask, as I have indicated before, your entire 
statements will be made part of the record, so if you would 
please summarize for us. We will begin with Dr. Gipp.

   STATEMENT OF DR. DAVID M. GIPP, PAST PRESIDENT AND BOARD 
MEMBER, AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM; PRESIDENT, 
                UNITED TRIBES TECHNICAL COLLEGE

    Dr. Gipp. Thank you, Senator. I appreciate the parallel to 
Gabby Hayes and I am glad to be here. I don't know that Gabby 
is anymore; 30 years goes by fast in many respects. I have been 
in the tribal college business, if you will, for about 35 
years, working on this whole effort. We have gone from six 
tribal colleges back in 1972, when I first started out working 
for that effort. We now have over 35 tribal colleges. So we are 
pleased to see the growth.
    We serve over 30,000 students now, among all of us 
nationwide. I am proud to say that United Tribes Technical 
College and Navajo Technical College, and Dr. Guy will be 
speaking shortly about that, are part of that effort to really 
change the way of life for Native people and for tribal 
governments. As you know, we have the fastest growing 
population in the United States when we talk about 51 percent 
or better of our population is under the age of 25 now. So the 
real challenge is really to bring quality education and to give 
hope and inspiration, but do it through education so that every 
one of our people have the skills and the ability to move ahead 
and bring their families and their tribes up to a 21st century 
level of participation in society. This is what it boils down 
to.
    That is how I look at this. That is why I think 30 years 
for me has gone by fast. It has been fun. It has been great. 
But we have had some disparities and some difficulties 
sometimes with the U.S. Government in their obligation to 
tribal colleges as part of treaty-based tribes, and that 
obligation to provide education for and by Native people. That 
is what this is all about, creating our own determination; 
creating our own pathway into that future.
    So to me, that is really what underlies and undergirds what 
we do. I have a student from United Tribes who graduated in 
1992. Everybody gave up on him. He had alcohol problems. He had 
attempts at suicide. He graduated from United Tribes. He is a 
Wisconsin Chippewa. Today, he is Vice President of my campus in 
Student Services. He is working on his doctorate right now. He 
has a family of eight children. He is a tax-producing citizen, 
if you will, on our campus. He lives in Bismarck, ND and is 
doing outstanding. Likewise, he is serving as a role model for 
other Native people.
    I know that we all have these different kinds of stories 
within our institutions in terms of the origins of what is 
happening back in those tribal communities.
    But let me get to the issue of our testimony. I do ask, of 
course, that it is part of the record, both for ourselves and 
for all of the tribal colleges. Today, I appear for the 
American Indian Higher Education Consortium, the 35 member 
organization that I referred to a bit earlier. We are talking 
about the issues of higher education and how we fit into that 
as a part of U.S. policy on higher education.
    When I first started out back 35 or 37 years ago in this 
effort, we were not welcome into the higher education community 
because many of the remarks that were being said was that, hey, 
how can you American Indian people do your own thing? You don't 
have qualified people to do those things. Well, today we do. By 
doing and persevering, I think it is very important that we 
continue this effort of being a part of higher education.
    To that end, we recommend that the Tribal Colleges and 
Universities Act of 1978 be continued as an amendment to the 
overall reauthorization of the Higher Education Act, and that 
we also see that the title III programs under the Higher 
Education Act are provided for more fully, more completely, and 
with a formula that will allow for equitable distribution of 
funds for those developing institutions, because indeed, we are 
developing institutions that participate and provide those 
firsthand opportunities to Native people.
    Second, we also urge that there be a hard look at this 
issue of facilities. Senator Tester, you mentioned this issue 
of facilities. We don't get any kind of maintenance money from 
the BIA or from anyone else. To build a building, whether it is 
a toilet or whether it is a classroom or whether it is a 
science lab, we have to go out and really, really dig in every 
way we can looking for those resources to put a basic facility 
in place on our campuses.
    So we need the continued help of title III higher education 
facilities programs, by the way. They have been very helpful, 
but more is very, very important in the future. Equity is very, 
very important when we talk about that, equity and access for 
our populations and for the institutions that we administer.
    Second, in terms of our testimony, I also want to point out 
there is a provision that is being put forth that would allow 
for more funds to go to mainstream institutions that perhaps 
serve Native American students. While we think this is good, we 
are very concerned that we would see a diminishment of dollars 
that would go to the students that we serve on our campuses.
    Third, we urge that the basic operating funds that are 
provided under the Tribally Controlled College or University 
Assistance Act be increased from roughly about the $5,200. 
Actually, it is authorized at $6,000. We are recommending that 
that authorization be upped to $8,000 per annum per student, is 
what it boils down to.
    Last, we urge that forward funding be included for tribal 
colleges and universities. This is a major problem, because our 
institutions are poor schools. We don't have the rich, big 
endowments. We don't have State funds or even tribal funds to 
rely on to keep us going during the interim years when we go 
from one fiscal year to the next. So forward funding is very 
critical to the day to day operations of our institutions.
    Last, we urge that the Congress take a hard look at 
providing specific legislative authorization to Navajo 
Technical College and United Tribes Technical College. For 6 
years now, the Administration has left us out of the budget. 
Senators and Mr. Chairman, you know full well that we have been 
a part of the budget, at least in the case of United Tribes, 
since 1969. We have good tribal support. We have good community 
support. We have good results and good data.
    Mr. Chairman, I met with the Office of Management and 
Budget about 2 years ago on this subject. I will tell you, the 
most frank answer I have received from this Administration is 
that until you are a favorite of the Secretary of the Interior, 
you are not going to get funded. It is a political question. We 
know that the BIA and the new BIE have the authority to fund us 
and to authorize it, and to ask for these funds, but they do 
not. So we ask that legislation be provided under a new Title V 
that would be under part of the Tribal Colleges and 
Universities Act as it would be reauthorized into the future.
    We do have solid support from our colleague institutions. 
Just 2 weeks ago, the presidents of the American Indian Higher 
Education Consortium passed a resolution supporting legislation 
that will be beneficial to these schools.
    I won't go into the other details because I know we have 
the other witnesses here. But much of this is contained in the 
details of our testimony. I would ask that you and others take 
a hard look at that, and see that this is all moved forward on 
behalf of the tribally controlled movement.
    Thank you so much.
    [The prepared statement of Dr. Gipp follows:]

   Prepared Statement of Dr. David M. Gipp, Past President and Board 
Member, American Indian Higher Education Consortium; President, United 
                        Tribes Technical College
                 United Tribes Technical College (UTTC)
    United Tribes Technical College (UTTC) submits this statement in 
support of enacting into law a new Title V to the Tribally Controlled 
College or University Assistance Act (Tribal College Act). We are very 
appreciative of this Committee's inclusion of us in the drafting and 
consultation process.
    The new Title would authorize Bureau of Indian Education (BIE) 
funding for our institutions which do not receive funding under the 
Tribal College Act. It is our hope that an explicit authorization of 
BIE funding for UTTC and Navajo Technical College (NTC) will encourage 
the Administration to reverse its course of the past 6 years when no 
Bureau of Indian Affairs funding was requested for us. Having the two 
institutions included in an authorization for a Tribally Controlled 
Postsecondary Career and Technical Institutions program in the BIE will 
lessen the likelihood that our funding will be considered an earmark.
    The Board of Directors of the American Indian Higher Education 
Consortium approved a resolution on March 23,2007 in support of 
enacting a new title to the Tribal College Act authorizing funding for 
UTTC and NTC provided that it would have no negative impact on funding 
the colleges currently receive under the Tribal College Act or other 
Acts. We are very appreciative of the support of our sister colleges.
    Background. UTTC and NTC do not now receive funding under the 
Tribal College Act, but rather receive funding as separate and 
unrelated line items in the BIA (now BIE) budget. Funding for both 
schools is uncertain every year. In fact, the Administration has 
requested zero funds for both schools over the past 6 years. Although 
our Congressional delegations have persuaded Congress to put our funds 
back into budget, even this action is now coming under scrutiny because 
of the controversy about ``earmark'' appropriations. United Tribes 
Technical College has been a part of the Executive branch budget 
requests since 1969.
    Under Titles I (24 tribal colleges) and II (Dine College) of the 
Tribal College Act, only one college per tribe may receive operating 
funds under that Act. UTTC is governed by a Board consisting of the 
Chairs of the five tribes located wholly or in part in North Dakota, 
and each tribe represented on our governing board has a tribal college 
that receives Tribal College Act funds. Thus, UTTC may not receive 
funds under the Tribal College Act. The same is true for NTC, as Dine 
College is the Navajo Nation recipient under the Act.
    On March 30, 2007 we received a draft bill from the Senate 
Committee on Indian Affairs amending the Tribal College Act, including 
establishing a new Title V as mentioned above. Our comments below will 
note where we are in agreement with the draft and where we recommend 
changes.
    Eligibility. We support the draft bill's provision (Section 502) 
making United Tribes Technical College and Navajo Technical College the 
only eligible institutions under Title V of the Tribal College Act and 
specifying that and that we must continue to meet the definition given 
the term ``tribally controlled postsecondary career and technical 
institutions'' in Section 3 ofthe Carl Perkins Act (20 U.S.C. 2302).
    Exempted From one College Per Tribe Provision. We support the draft 
bill's provision exempting Title V from the provision that allows 
funding for only one college under the Act. The bill does this by 
exempting Title V from certain provisions of the Tribal College Act. 
These exemptions are listed in Section 503(a) of the draft bill. This 
section says that the paragraph that contains the definition of 
``tribally controlled college'' (Section 2(a)(4) of the TCCUAA), which 
also contains the statement that only one college per tribe may receive 
funding, does not apply to Title V.
    Indian Self-Determination Act Contracts. We support Section 503(b) 
which provides that funding is to continue to be made available 
pursuant to the Indian Self-Determination and Education Assistance Act. 
UTTC has been administering funds from the BIA under an ISDEAA grant 
since 1978. NTC is also now administering its funds under an ISDEAA 
contract.
    Use the terms ``Funds'' or ``Funding''. We ask that the terms 
``grant'' or ``grants'' in the draft bill be changed to ``funds'' or 
``funding'' throughout Title V. Funds administered under ISDEAA 
contracts are not ``grants'', and even though the draft bill provides 
that the funds will be continued to be made available pursuant to the 
ISDEAA, we want it clarified that these funds are not ``grants''. 
Grants are far more limiting and do not generally bring with them 
contract support costs funding; whereas funds administered under an 
ISDEAA do bring with them funding for contract support costs.
    Distribution of Funds. We support a distribution of funds that:

  <bullet> Holds harmless the two schools at the higher of their FY 
        2006, 2007 or 2008 BIA funding levels. In other words, 
        contingent upon appropriations, the schools could not be funded 
        at an amount less than the amount for their base year (the 
        higher of FY 2006, 2007 or 2008). This could mean that each 
        institution uses a different base year, which is acceptable. It 
        is likely that each institution's FY 2007 funding will be the 
        same as its FY 2006 funding, although final FY 2007 allocations 
        have not yet been made. The draft bill leaves open the year 
        which would be considered the base year.

  <bullet> Distributes appropriations above the ``hold harmless'' level 
        of the two institutions combined according to the Indian 
        Student Count formula used to distribute Section 117 Perkins 
        Act grants. This formula was just enacted into law in 2006. For 
        instance, if the hold harmless amount for both schools combined 
        is $6 million, but the total appropriation is $7 million, then 
        the $1 million above the hold harmless amount would be 
        distributed according to the Indian Student Count formula. The 
        draft bill would have the Secretary of Interior establish a new 
        formula for distribution of funds that are in excess of the 
        base amount--we do not favor the Secretary having this 
        responsibility.

    Justification for ``hold harmless'' language. Each institution has 
established a budget for its operations according to current and 
expected funding levels for the coming year. BIA funds are critical for 
core functions such as curricula development and hiring of instructors. 
Neither institution can afford to take a significant reduction in 
funding. Further, it is not unusual for Congress to enact ``hold 
harmless'' provisions when a funding methodology is changed--one 
current example is the hold harmless provision under Title I of the 
Elementary and Secondary Education Act.
    Justification for formula distribution of those funds in excess of 
the ``hold harmless'' amount. United Tribes Technical College and 
Navajo Technical College agreed to the Indian Student Count provision 
included in the 2006 reauthorization of the Carl Perkins Career and 
Technical Education Act. Under that formula every 12 credits taken by 
an Indian student is valued as one Indian Student Count. Each school is 
provided funds based upon a division of the total ISC for both 
institutions into the amount appropriated for the program.
    A major reason why we reached an agreement on the formula for the 
ISC contained in the newly reauthorized Carl Perkins Act is that it is 
almost the same formula as set out in the Tribal College Act. Since we 
are now proposing to be authorized under a new title V of the Tribal 
College Act, it makes sense to utilize the Carl Perkins ISC formula, so 
similar to the Tribal College Act's ISC formula, for funds in excess of 
the ``hold harmless'' amount.
    Justification for eliminating the discretion of the Secretary of 
Interior. The draft bill would require the Secretary of Interior to 
develop a formula for the distribution of the ``excess'' funds. As this 
Committee knows, the Secretary of Interior is the one who has regularly 
left NTC and UTTC out of the President's annual budget six times in a 
row. We have no reason to trust the Secretary's discretion. Further, 
the process of developing a formula for distribution could take a very 
long time and delay distribution of funds. It would further create 
great uncertainty about funding for the two institutions.
    Since we already have a formula for fund distribution that works, 
and both parties understand how it works, we see no reason why the 
Secretary should have discretion to create a new formula or a new 
process for distribution of funds. The formula we have proposed is fair 
to both institutions and recognizes the needs of both institutions, to 
the extent Congress provides adequate funding.
    A formula also has the advantage that it avoids the issue of 
``earmarks''. Funding that is competitive or formula driven is not 
generally considered an ``earmark'', even by the Office of Management 
and Budget (OMB).
    We also do not support the idea of the Secretary distributing funds 
utilizing information provided by the Government Accountability Office 
as has also been suggested (but it not in the draft bill). A GAO study 
of the ``needs'' (a subjective and undefined term) of the two 
institutions could take years to complete--the request would go to the 
bottom of the long list of requests for reports. Even requests from 
Committee Chairs on reports of national significance do not happen 
quickly. In 2003 Finance Committee Chairman Grassley asked the GAO to 
study Indian participation in Medicare and Medicaid programs, a study 
that 4 years later is just now getting underway. Therefore, a GAO study 
is not a practical or efficient way to distribute core funding that is 
so vitally needed now by both institutions.
    A study of tribal needs nationally regarding human resource capital 
relative to career and technical education. We feel strongly that there 
should be a study that focuses on the present human resource 
development needs of all Indian tribes in relation to career and 
technical education. Tribal governments, Federal agencies, and private 
entities are making plans to develop Indian Country, but not enough 
thought has gone into assessing the present tribal human resource 
capital--economic/business, social, political, cultural, nor what needs 
to be done to involve the Indian/Alaska Native population in guiding 
and benefiting from such development. Broad questions that could be 
assessed could include: (1) the status of the workforce infrastructure 
available to tribes; (2) workforce and infrastructure needs of tribes; 
(3) economic development opportunities that would expand tribal 
economies; (4) tribal education and job training needs. A study of this 
kind could go a long way toward helping tribal colleges meet the needs 
of the tribes they serve, point the way for new tribal colleges to be 
developed, and assist Congress to more effectively help meet the needs 
of tribes as they continue to develop their economies.
    Thank you. We look forward to continuing with work with the Senate 
Committee on Indian Affairs.
                                 ______
                                 
          American Indian Higher Education Consortium (AIHEC)
    Chairman Dorgan, Vice Chairman Thomas, and distinguished Members of 
the Committee, on behalf of this Nation's 34 Tribal Colleges and 
Universities (TCU), which comprise the American Indian Higher Education 
Consortium (AIHEC), I thank you for extending us the opportunity to 
testify. I am honored to be here.
    My name is David Gipp, I am a Member of the Hunkpapa Lakota tribe 
and for the past 30 years I have served as the President at United 
Tribes Technical College, which is located near Bismarck, North Dakota 
and serves Indian students from over 75 federally recognized tribes 
across the Nation.
    United Tribes began as a residential employment training program 
and was called United Tribes Employment Training Center. Today, UTTC 
offers over 30 Associate degree and certificate programs, with five 
degrees being offered through online delivery. The college employs over 
330 faculty, staff and administrators and serves over 1,400 full- and 
part-time students.
    The idea of tribally controlled institutions of higher education 
has spread rapidly throughout Indian Country, over the past 30 years. 
Today, despite decades of severe funding inequities and Federal budget 
cuts, there are 35 Tribal Colleges and Universities located in 14 
states educating many thousands of full- and part-time students from 
over 250 federally recognized Indian tribes.
    This morning, I would like to give you some background on the 
tribal college movement and to detail some specific issues and how they 
might be addressed during the 11Oth Congress reauthorization of the 
Higher Education Act (HEA) and the Tribally Controlled College or 
University Assistance Act--or Tribal College Act.
I. Background: The Tribal College Movement
    Tribal Colleges and Universities (TCU) are young, geographically 
isolated, and poor. Forty years ago there were no Tribal Colleges or 
Universities. Most TCU are located in areas of Indian Country that the 
Federal Government defines as extremely remote. We serve our 
communities in ways far beyond college level programming, and are often 
called beacons of hope for our people. We provide much needed high 
school completion (GED), basic remediation, job training, college 
preparatory courses, and adult education programs. We function as 
community centers, libraries, tribal archives, career and business 
centers, economic development centers, public meeting places, and elder 
and child care centers. In fact, an underlying goal of all TCU is to 
improve the lives of students through higher education and to move 
American Indians toward self-sufficiency. This goal is important to us 
because of the extreme poverty in which most American Indians live. In 
fact, three of the five poorest counties in America are home to TCU, 
where unemployment rates range from 50 to 75 percent.
    We are the most poorly funded institutions of higher education in 
the country. And apart from the U.S. Military Academies and Howard and 
Gallaudet Universities, we are the only institutions of higher 
education whose basic operating budgets are funded--by legislative 
mandate--by the Federal Government.
    Most of our institutions are located on Federal trust land. 
Therefore, states have no obligation to fund tribal colleges. Most 
states do not even provide funds for the non-Indian state-resident 
students who account for 20 percent of our enrollments. Yet, if these 
same students attended any other public institution in the state, the 
state would provide that institution with basic operating funds. 
Ironically, TCU are accredited by the same regional agencies that 
accredit state institutions.
    Despite their strong support, our tribal governments are able to 
provide us with only modest financial support. Our tribes are not the 
handful of small and wealthy gaming tribes located near major urban 
areas; rather, they are some of the poorest governments in the Nation. 
Only a handful of tribal colleges currently receive any revenue from 
tribal gaming. Gaming is not a stable or viable funding source for TCU, 
nor should it be a factor when considering the funding of tribal 
colleges. And as you know, it is a very few casinos that are located in 
or near major urban areas that are realizing the vast majority of the 
highly publicized profits from Indian gaming.
    Revenues from state run gaming operations far exceed revenues from 
Indian gaming. Although some form of gaming is legalized in almost 
every state, the Federal Government has not used the revenue generated 
from state run gaming to justify decreasing Federal funding to state 
operated colleges or universities. The standards that apply to states 
and state operated higher education institutions should apply to tribes 
and tribal colleges. Unfortunately, it appears that this is not the 
case.
II. 110th Congress Reauthorization of the Tribally Controlled College 
        or University Assistance Act and Higher Education Act
(A) Tribally Controlled College or University Assistance Act--Key 
        Issues
    Institutional Operations and Forward Funding: Despite trust 
responsibilities and treaty obligations resulting from the exchange of 
millions of acres of land, the Federal Government has not, over the 
years, considered funding of American Indian higher education a 
priority.
    Since 1981, when the Tribally Controlled College or University 
Assistance Act, or ``Tribal College Act'' was first funded the number 
of tribally chartered institutions funded under Title I of said Act has 
quadrupled and it is expected that three to five additional 
institutions will be eligible for Tribal College Act funding in the 
near future. In addition to the increasing number of tribal colleges, 
enrollments of full-time Indian students have grown over 300 percent.
    Despite the much appreciated increases that Congress has 
appropriated over the last several years, Tribal Colleges and 
Universities are chronically under-funded. Today, 26 years after the 
Act was first funded, the TCU are receiving $5001 per Indian student, 
just 80 percent of their authorized level. And if you factor in 
inflation, the buying power of this appropriation is $1,337 LESS per 
Indian student than it was in the initial FY 1981 appropriation, which 
was $2,831 per Indian student.
    Clearly, an increase in the per Indian student authorized level is 
warranted and necessary and adjusting the new level to annual inflation 
is a way to keep the authority level from becoming a false measure of 
adequate funding.
    On the face of it, the holdups due to impasses and the resulting 
continuing resolutions or even delays in the Department's distribution 
of operating funds after Congress makes them available, might seem 
easily remedied. However, the consequences have a cumulative effect 
that create even greater financial difficulties that grow 
exponentially, the longer the payments are left undistributed.
    The stop gap measures, such as short term loans, that must be 
employed to keep tribal colleges operating only serve to further 
exacerbate the tenuous financial circumstances under which these 
institutions are continually forced to operate. The situations created 
by budget impasses or Department delays lead to strained relations with 
banking institutions and a lack of credibility with businesses in the 
colleges' respective communities. It creates a need to identify 
emergency lines of credit to secure daily operational cash-flow. These 
lines of credit come with burdensome interest rates that immediately 
reduce the appropriated level of funding included in the final enacted 
bill.
    Over the past several years, funding has not been available until 
well after October 1 of the relevant fiscal year. In FY06, although the 
Interior appropriations bill was signed into law in August, TCU did not 
receive their operating funds until late November and December, several 
months into the academic year. This year, due to the protracted FY07 
appropriations process, TCU did not receive operating funds until 
February or March--4 to 5 months into the fiscal year and 6 months 
after our academic year begins. Delayed appropriations and less than 
timely distribution of funds, which are becoming the regular order, 
make it difficult to properly plan and project operation funding needs, 
hamstring long-range strategic planning, and force heavier reliance on 
grants and soft-money funding, which is a recurring concern of the 
accrediting agencies. In short, TCU are forced into a credibility 
crisis with their faculty, staff, communities, and students. Forward 
funding of our institutional operations would go a long way to breaking 
this unfortunate cycle.
Recommendation:
  <bullet> Increase the Authorized Institutional Operations Funding 
        Level: Tribal Colleges and Universities request that the 
        Committee include an increase to the per Indian student 
        authorized level for operations to ``$8,000 adjusted annually 
        for inflation,'' in its bill regarding the reauthorization of 
        the Tribal College Act.

  <bullet> Forward Funding: No additional language is needed as the 
        authority already exists in the Tribal College Act to forward 
        fund the institutional operations of eligible TCU. Tribal 
        Colleges and Universities request that the Committee recommend 
        that the Appropriations Committee and the Administration work 
        to secure the one time appropriation needed to achieve forward 
        funding in Fiscal Year 2009.

    Authorizing BIE funding for Tribally Controlled Post-secondary 
Career and Technical Institutions: Navajo Technical College and United 
Tribes Technical College: United Tribes Technical College (UTTC) and 
Navajo Technical College (NTC) very much appreciate this Committee's 
including a Title V to the Tribally Controlled College or University 
Assistance Act during the reauthorization of said Act. The new Title 
would authorize Bureau of Indian Education (BIE) funding for our 
institutions. By establishing this authorization for the Tribally 
Controlled Post-secondary Career and Technical Institutions in the BIE 
it will lessen the likelihood that their funding will be considered an 
earmark, and may reverse the trend of the past 6 years of eliminating 
funding for our institutions in the President's annual budget.
    The Board of Directors of the American Indian Higher Education 
Consortium approved a resolution on March 23, 2007 supporting the 
inclusion of a new title to the Tribal College Act to authorize 
institutional operating funds for UTTC and NTC provided that it would 
have no negative impact on funding of any tribal colleges currently 
receiving institutional operating funds from the Department of the 
Interior.
    Under Titles I (24 tribal colleges) and II (Dine College) of the 
Tribal College Act each tribe may charter only one college to receive 
operating funds under the Act. UTTC is governed by a Board consisting 
of the Chairs of the five tribes located wholly or in part in North 
Dakota and each tribe represented on our governing board has a tribal 
college that receives funds under Title I of the Tribal College Act. It 
is for this reason that UTTC may not receive funds under the Tribal 
College Act. The same is true for NTC, as Dine College, which is 
chartered by the Navajo Nation, receives funds under Title II of the 
Act.
Recommendation:
  <bullet> Authorization for Tribally Controlled Post-secondary Career 
        and Technical Institutions: The Board of Directors of the 
        American Indian Higher Education Consortium approved a 
        resolution on March 23, 2007 supporting the inclusion of a new 
        title to the Tribal College Act to authorize institutional 
        operating funds for UTTC and NTC provided that it would have no 
        negative impact on funding the tribal colleges currently 
        receiving institutional operating funds from the Department of 
        the Interior. Tribal Colleges and Universities urge the 
        Committee to work with the presidents of our two affected 
        institutions in determining the details of language and 
        implementation of the proposed new title.
(B) Higher Education Act--Key Issues
    Department of Education--HEA Title III-A section 316: Title III-A 
of the Higher Education Act supports minority and other institutions 
that enroll large proportions of financially disadvantaged students and 
have low per-student expenditures. Tribal colleges clearly fit this 
definition. TCU fulfill a vital role by providing access to quality 
higher education programs to some of the most impoverished areas of the 
country. Their programs are specifically designed to focus on the 
critical, unmet needs of their American Indian students and 
communities, in order to effectively prepare their students for the 
workforce of the 21st Century. A clear goal of the Title III program is 
to improve the academic quality, institutional management, and fiscal 
stability of eligible institutions, in order to increase their self-
sufficiency and strengthen their capacity to make a substantial 
contribution to the higher education resources of the Nation.
    TCU are the youngest and least developed institutions of higher 
education in the Nation. As such, they are the most in need of these 
funds yet, our funding level increases lag behind other programs, and 
we must struggle to submit competitive applications under the arduous 
requirements and volume of Title III Part A grants for the funds that 
are available. Many higher education institutions spend thousands of 
dollars on grant application preparation and submission. This is simply 
not an option for TCU. In addition, the pool of eligible applicants for 
the TCU program is small and although new TCU are emerging, the pool is 
expected to remain below 45 institutions for the foreseeable future. 
Creating a formula funded program would result in a win-win situation. 
Current applications submitted for Title III Part A competitive grants 
must have each of the required areas individually judged by application 
reviewers, by converting the TCU program to formula funding 
considerable administrative time and cost savings could be realized by 
the Federal Government. For these reasons, the Department of Education 
supports formula funding for the Tribal College Title III development 
grants program.
Recommendation:
  <bullet> Expand and increase authority for the Tribal Colleges and 
        Universities' Title III-A Developing Institutions Program--The 
        Tribal Colleges and Universities request that the Committee 
        include the language contained in Sec. 303 of S. 1614, reported 
        from the Senate HELP Committee in the 109th Congress to formula 
        fund the Tribal Colleges' 5-year developing institutions grants 
        and also retain the critically needed construction grants that 
        are competitively awarded on an annual basis, in its bill or 
        any recommendations sent to the Senate HELP Committee regarding 
        the reauthorization of the Higher Education Act.

    Proposed Native American Serving, Non-Tribal Institutions Program: 
In the 109th Congress, the Senate bill to reauthorize the Higher 
Education Act included a new Title III program for ``Native American-
Serving, Non-Tribal Institutions''. Tribal colleges have serious 
concerns regarding this proposal--but the underlying issue is one of 
equity.
    Tribal Colleges and Universities have a special relationship with 
the Federal Government, which is based on our status as extensions of 
the federally recognized Indian tribes that charter us. Our tribes have 
binding treaties with the U.S. Government that include certain 
responsibilities, including education, in exchange for millions of 
acres of land. The reason the Tribally Controlled College or University 
Assistance Act exists--and resources are allocated to tribally 
controlled colleges and universities--is because of these treaties and 
the Federal trust responsibility. In short, this is solely a political, 
and not race-based, distinction. Funding of tribal colleges and 
universities raises no affirmative action issues. This Native American 
Serving, Non-Tribal Institutions proposal, however, does.
    Additionally, the vast majority of tribal colleges has open 
enrollment policies. Approximately 20 percent of our enrollments are 
non-Indian students and these students receive the same education 
opportunities as enrolled tribal members. However, the tribal colleges 
and universities cannot include anyone who is not an enrolled member of 
a federally recognized tribe in their student count that is used to 
determine their institution's operating budget. There are no parameters 
for determining Native American students under the proposed American 
Indian Serving Institutions. Native American students would simply be 
determined by self-reporting, there is no definition of parameters to 
determine what constitutes a ``Native American''.
    Tribal colleges receive little, or as in many cases no, 
institutional operating funds from the state for either the Indian or 
non-Indian state residents who attend a tribal college or university. 
State supported institutions that would be eligible to receive funding 
under this proposed Native American Serving Institution Title III 
program already count their American Indian students, as well as non-
Indian state residents, when tallying their institution's student count 
for determining their allocation of funds from the state.
    Further, there is no practical way of separating out funds going to 
improve education opportunities for Native Americans within these state 
institutions. As noted earlier, these institutions already receive 
funding for the education of their Native American students. This 
program would just result in creating a source of additional funds for 
state supported institutions to increase their basic operating and 
program budgets--without any means for measuring its effect on Native 
American students.
Recommendation:
  <bullet> Proposed Title III-A Native American Serving, Non-Tribal 
        Institutions Program: As a matter of equity and for the reasons 
        noted earlier in this statement, the Tribal Colleges and 
        Universities respectfully request that the Committee on Senate 
        Indian Affairs oppose the establishment of a new Title III-A 
        program for so-called Native American Serving, non-Tribal 
        Institutions.
III. Conclusion
    Tribal Colleges and Universities bring high quality, culturally 
relevant higher education opportunities to thousands of American 
Indians. The modest Federal investment in the TCU has paid great 
dividends in terms of employment, education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense. 
Tribal colleges need stable funding sources and competent agency 
administration of our various programs to sustain and grow those 
programs and achieve our missions.
    We greatly appreciate the long standing support of this 
distinguished Committee. Thank you for this opportunity to present our 
views and recommendations to help achieve equality in higher education 
and economic opportunities in Indian Country through the Nation's 
Tribal Colleges and Universities.

    The Chairman. Dr. Gipp, thank you very much.
    I should just mention that the question of funding the 
United Tribes, for example, is not solely within the discretion 
of the Department of the Interior or the Secretary of the 
Interior. The Congress has weighed in on that each year that 
this President has left it out of the budget.
    But you are quite correct that you were always a part of 
the budget until this Administration. Congress has, as you 
know, decided this Administration is wrong and has continued 
that funding. But I think the authorization request is a 
reasonable request that we should proceed on.
    Dr. Gipp. I deeply appreciate the bipartisan effort by the 
Congress, Mr. Chairman.
    The Chairman. Mr. Elmer Guy is a board member of the 
American Indian Higher Education Consortium, and president of 
the Navajo Technical College in Crownpoint, NM. Mr. Guy, thank 
you for being with us.

         STATEMENT OF ELMER J. GUY, PRESIDENT, NAVAJO 
       TECHNICAL COLLEGE; BOARD MEMBER, AMERICAN INDIAN 
                  HIGHER EDUCATION CONSORTIUM

    Mr. Guy. Thank you, Mr. Chairman, Members of the Committee.
    I am here today in partnership with Dr. Gipp from United 
Tribes Technical College, in order to ask for support for the 
new title V section of the Tribally Controlled Colleges and 
Universities Act of 1978. This new title will authorize funds 
to tribally controlled post-secondary career and technical 
institutions.
    Navajo Tech was founded in the largest American Indian 
Nation, the great Navajo Nation, to help turn a tragedy into 
educational success. Navajo Tech has had a distinguished 
history in Indian education. Part of the challenge is the 
realization of the depth of the tragedy of Indian education in 
1968. Back in 1969, we began to discover how to use education 
and training as a tool to address the immediate needs of 
unemployed populations.
    In 1979, the Navajo Skills Center was founded to meet that 
critical need. Unemployed Navajo citizens not only mastered 
vocational and technical skills, but they found jobs. In 1985, 
I response to the limited offerings by the Navajo Skills 
Center, this school became Crownpoint Institute of Technology. 
The Institute began to expand its program in order to offer 
associate degrees at that time, and responded to the national 
trends as they relate to career technical education.
    While Navajo Tech responded positively to the call for the 
Nation's colleges and universities to begin working toward 
programs that would bolster science, technology, engineering, 
math and competitive needs of the 21st century by developing 
impressive associate programs, it continued to build programs 
like culinary arts, nursing assistants, automotive and so 
forth, to keep with the knowledge revolution and career fields 
and insure that job certificate degree priorities are aligned 
to achieve high placement rates.
    In 2005, Navajo Technical College was accredited by the 
Higher Learning Commission as a higher education institute. 
Navajo Tech has maintained retention rates over time that 
exceed 60 percent of the student population using cohort 
analysis, besting the national community retention rate below 
50 percent. This does not mean that Navajo Tech comes close to 
meeting the Navajo people's higher education needs. The 2000 
census acknowledges a Navajo population at 225,298. On trust 
land alone, we have 106,432 citizens that are over age 18 and 
needing higher education.
    In spite of the success by Navajo Tech, the BIA in 2000 
began to zero out the budget for critically needed operational 
funds. This is part of the operational funding that receives 
the Indian Self-Determination Act contracts. Both colleges also 
receive funding from Department of Education funding under the 
Carl D. Perkins Act.
    But through the wisdom of Congress and the deeply 
appreciated help of this Committee, and Senators and 
Representatives from our home States, the BIA decision has been 
reversed every year since then, thus keeping both Navajo Tech 
and United Tribes Technical College alive and providing 
services to students.
    The truth is that, Members of the Committee, Navajo Tech 
needs to stabilize its funding base. Without BIA and Carl 
Perkins funding, in spite of the discretionary target funding 
the college is eligible to apply for, Navajo Tech and UTTC 
cannot provide even the modest services that it now provides to 
students of the United States.
    We especially want to support the formula for funding 
between Navajo Tech and UTTC that will hold harmless that two 
schools at the higher of their 2006, 2007, or 2008 funding 
levels. We want to ensure that the two schools will not be 
funded at an amount less than the amount of their base year 
based on congressional appropriations, and to distribute 
appropriations above the hold harmless level of the two 
institutions combined, according to the Indian student formula 
used to distribute Section 117 Carl Perkins Act grants.
    Ensure that the legislation passed includes a provision 
which provides that funding is continued to be made available 
pursuant to the Indian Self-Determination Education Assistance 
Act. Ensure that the two colleges will continue to receive the 
base funding that they need through sources from BIE and 
Perkins Act funding.
    Recognize that the Navajo Nation is the largest American 
Indian Nation in the Country, with by far the largest 
population base, and should not be therefore limited to only 
one institution of higher learning to serve its people. In 
comparison, Members of the Committee, the Navajo Nation is 
larger than West Virginia and other smaller States like 
Connecticut and Rhode Island, and they are not limited to one 
college.
    Ensure that there is authorization for forward funding, as 
well as to allow both colleges to use non-Federal match, and to 
use their funds as the non-Federal match.
    Therefore, the greatest respect for the Members of this 
Committee, which number among Navajo Tech's friends, we ask 
that you support the new title V language before you so that we 
can end the uncertainty and provide stability to our colleges. 
We are hoping that you will, on a bipartisan basis, help us to 
live up to our educational responsibility to current Navajo 
students, future students, and even unborn students of the 
future.
    The job identified in 1969 is still with us today. We need 
to change the tragedy of Indian education into a success of 
Indian education. The United States needs us to succeed since 
our human resources are always our greatest asset. If we 
succeed, all of us serve the American people well.
    Thank you, Mr. Chairman and Members of the Committee.
    [The prepared statement of Mr. Guy follows:]

    Prepared Statement of Elmer J. Guy, President, Navajo Technical 
   College; Board Member, American Indian Higher Education Consortium
    Honorable Members of the Committee on Indian Affairs. My name is 
Elmer J. Guy, President of Navajo Technical College (Navajo Tech) that 
has two campuses on the Navajo Nation in Crownpoint, New Mexico and 
Chinle, Arizona. I am here today in partnership with Dr. David Gipp, 
the President of United Tribes Technical College (UTTC) located in 
Bismarck, North Dakota, in order to ask for support for a new Title V 
section to the Tribally Controlled Colleges and Universities Act of 
1978 (25 USC 1801, et seq.). This new title will authorize funds to 
tribally controlled postsecondary career and technical institutions.
    Navajo Tech, like UTTC, has had a distinguished history in Indian 
higher education. In the famous 1969 report by the Committee on Labor 
and Public Welfare of the U.S. Senate, made by its Special Subcommittee 
on Indian Education, Indian education throughout the United States was 
found to be ``a National Tragedy--a National Challenge.'' The stark 
reality painted by the statistical and policy analysis in that report 
shocked the Nation at that time. U.S. education policy toward American 
Indian people had not improved their lives and prospects for a better 
future. It had, instead, taken resources from the national treasury in 
a way that perpetuated a historical tragedy of major proportions.
    I will let the able Dr. Gipp speak for his institution, of course. 
He is one of the most distinguished American Indian educators in the 
Nation and has been so for a long period of time. But Navajo Tech was 
founded on the largest American Indian Nation, the great Navajo Nation, 
in the U.S. to help turn a tragedy into educational success.
    Part of the challenge in the wake of the realization of the depth 
of the tragedy of Indian education in 1969 was to begin to discover how 
to use education and training as a tool to address the immediate needs 
of an unemployed population. In 1979 the Navajo Skill Center was 
founded to meet that critical need. Through the dedicated work of 
Navajo education leaders at that time, the Skill Center was a success. 
Unemployed Navajo citizens not only mastered vocational and technical 
skills, but they found jobs.
    With a Navajo population of the time at over 150,000 people, this 
success was limited, however. There were a lot of reasons for this. 
Funding was limited; too few training and educational programs were 
available; student and trainee interests were broader than the 
curriculum; jobs in the Nation were limited and highly competitive; job 
requirements became more demanding as the national economy demanded 
higher levels of education, and dreams among students and Navajo 
educators were larger than the Navajo Skills Center structure could 
contain.
    In 1985, in response to these new challenges, the Skills Center 
became the Crownpoint Institute of Technology. A new era was begun. The 
Institute began to expand its programming in order to offer associate 
degrees. It began to pay close attention to national trends as they 
related to careers and technical education. And, was previously true, 
it began to succeed as it developed programs to meet the challenges 
present during the late 1980s and 1990s.
    I am telling this history to make two points: (1) That Navajo 
Technical College has played a vital role in the effort by the U.S. 
Senate and government of the United States to address problems in 
Indian education that stretch back into U.S. history and (2) that, 
although it has not managed to meet even one half percent of the 
technical and career needs on the Navajo people living in New Mexico, 
Arizona, and Utah, it has been making slow progress on national 
education goals as they relate to American Indian people.
    While Navajo Tech was the Crownpoint Institute of Technology it 
managed a number of significant achievements. It responded positively 
to the call for the Nation's colleges and universities to begin working 
toward programs that would bolster the science, technology, 
engineering, and math competitive needs of the 21st century by 
developing impressive associate degree programs. It continued building 
its strengths in programs like culinary arts and automotive technology, 
sometimes keeping up with the knowledge revolution in career fields and 
sometimes ensuring that jobs, certificate, and degree priorities were 
aligned to achieve high job placement rates.
    In 2005 Crownpoint Institute of Technology became Navajo Technical 
College, in part because of the expansion of services into the Arizona 
side of the Nation. Navajo Tech has maintained retention rates over 
time that exceed 60 percent of the student population using cohort 
analysis, besting a national community college retention rate of a 
little over 50 percent. It became a land grant institution in 
partnership with other tribal colleges in 1994. In 2005 it became fully 
accredited by the Higher Learning Commission of the North Central 
Association.
    This does not mean that Dine College, the other tribal college on 
the Navajo Nation and Navajo Tech are coming close to meeting the 
Navajo people's higher education needs--although both institutions of 
higher learning provide absolutely vital eduacational services to the 
Navajo people. U.S. Census acknowledges a total of Navajo population of 
225,298. On trust land alone, 106,432 Navajo citizens are age 18 and 
over. This population is spread throughout a 17,500,000 acre 
reservation (26,897 square miles) extending into three states. The 
Navajo reservation is 2,810 square miles larger than the State of West 
Virginia. The median Native American population age is 27.4 years, 8 
years younger than the median age for mainstream America. Approximately 
10,000 Navajo students graduate from area high schools each year. 
Dropout rates from high school are as high as they are in the most 
challenging urban schools. Large percentages of those Navajo students 
who graduate lack basic reading, writing, and math skills. Navajo Tech 
alone only serves a little over 500 full-time equivalency students 
where it should be serving thousands if persistent poverty on the 
Navajo Nation is going to be ended before the 21st century ends.
    In spite of the success realized by Navajo Tech, and the needs that 
I just brushed over with the lightest of touches--I will be glad to 
provide the Committee or staffers with more extensive statistics if 
that will be useful to your deliberations, the Bureau of Indian Affairs 
(BIA) in 2002 began to zero out the budget for critically needed 
operational funds, the authorization for appropriations that enables 
Navajo tech is Pub.L. 84-959, ``Vocational Training for Adult 
Indians.'' This is part of the operational funding that Navajo Tech 
receives under the Indian Self-Determination Act Contract. Both 
colleges also receive U.S. Department of Education Funding under 
Section 117 of the Carl D. Perkins Vocational Education Act as part of 
its operational funding.
    Through the wisdom of Congress and the deeply appreciated help of 
this Committee and the Senators and Representatives from our home 
states, the BIA decision has been reversed every year since then, thus 
keeping both Navajo Tech and UTTC alive and providing services to their 
students. But the uncertainty and stress on communities, which read 
about the yearly drama in area newspapers and hear about it on area 
media, students, faculty, and staff damages Navajo Tech every single 
year. ``Will Navajo Tech survive another year or not? '' People say. 
``What's wrong with the college if the Bureau of Indian Affairs wants 
to shut it down? '' They say. Education is about the future, and when 
the future is clouded and troubles seem to always verge on creating 
disaster, then planning efforts go awry, key professionals look for 
other jobs, students question if they should make a decision that is in 
their best interest, and keeping everyday tasks going gets harder.
    The truth is that Navajo Tech needs to stabilize its funding base. 
Without BIA and Carl Perkins funding, in spite of the discretionary and 
targeted funding the college is eligible to apply for, Navajo Tech 
cannot provided even the modest services that it now provides to the 
Navajo Nation and the people of the United States. We especially want 
to support the formula for funding between Navajo Tech and UTTC that 
will:

  <bullet> Hold harmless the two schools at the higher of their 2006 or 
        2007 funding levels. We want to ensure that the two schools 
        will not be funded at an amount less than the amount for their 
        base year based upon Congressional appropriations.

  <bullet> Distribute appropriations above the ``hold harmless'' level 
        of the two institutions combined according to the Indian 
        Student Count Formula used to distribute Section 117 Perkins 
        Act grants.

  <bullet> Ensure that the legislation passed includes a provision 
        which provides that funding is continued to be made available 
        pursuant to the Indian Self-Determination and Education 
        Assistant Act.

  <bullet> Ensure that the two colleges will continue to receive the 
        base funding they need from their sources of BIA and Perkins 
        Act funding.

  <bullet> Recognize that the Navajo Nation is largest American Indian 
        nation in the country with by far the largest population base 
        and should not therefore be limited to only one institution of 
        higher learning to serve its people.

    Therefore, with the greatest of respect for the Members of this 
Committee, which number among Navajo Tech's greatest friends, we ask 
that you support the new Title V language before you so that we can end 
the uncertainty and provide stability to our college. We are hoping 
that you will, on a bi-partisan basis, help us to live up to our 
educational responsibility to current Navajo students, future students, 
and even unborn students of the future. The job identified in 1969 is 
still with us. We need to change the tragedy of Indian education into 
the success of Indian education. The United States needs us to succeed 
since our human resources are always our greatest asset. If we succeed 
all of us serve the American people well.
    A further truth is that both Navajo Tech and UTTC are making 
strides in spite of the institutional stress and challenges we face 
because of the zeroing out of BIA funding every year. Again, I will let 
Dr. Gipp speak for his institution, but at Navajo Tech our enrollment 
is increasing. Our technology education program has become a world 
class program. It is currently in the process of developing an 
initiative called Internet to the Hogan that is using science and 
technology research in areas like high speed wireless connectivity and 
supercomputing and using those technologies to end the digital divide 
on the Navajo Nation. The Congress of the United States provided the 
funds through the National Science Foundation and other Federal 
agencies to make the work we are doing possible. Navajo students are 
learning world class skills as a result of this project, and some of 
our graduates, both working at the college and elsewhere, are becoming 
leaders in research, education, and the entrepreneurial use of 
technology.
    We are currently working hard with the Superintendent of Navajo 
Education, Dr. Tommy Lewis, to improve K-20 student performance in pre-
college science, technology, engineering, and math skills, working on 
an answer to the problem of underperforming high school students. We 
are extending our service area, strengthening curriculum and increasing 
academic rigor in fields as diverse as nursing, automotive repair, 
electrical trades, and alternative energy. Title V will not provide 
solutions to all of the challenges that still must be overcome to end 
the national tragedy in Indian education that we have fought to 
overcome since 1969. More resources, fresh ideas, an entrepreneurial 
drive for excellence, and the kind of determination present in the 
students, staff, faculty, and administrators at Navajo Tech will all be 
needed. But the passage of this legislation will be an important step 
toward Navajo Tech's long-term future.

    The Chairman. Mr. Guy, thank you very much for being with 
us today.
    Next, we will hear from Jamie Merisotis, President of the 
Institute for Higher Education Policy in Washington, DC. Mr. 
Merisotis, thank you for being with us.

   STATEMENT OF JAMIE P. MERISOTIS, PRESIDENT, INSTITUTE FOR 
                    HIGHER EDUCATION POLICY

    Mr. Merisotis. Thank you very much, Mr. Chairman.
    Improving access to higher education continues to be one of 
the most important contributions that the Federal Government 
can make to our national well being. For many American Indians, 
the path of educational attainment is one of many journeys 
reflecting the complex challenges that face people who have 
been under-served by America's educational system for more than 
two centuries.
    A combination of historical, economic, social and 
demographic forces have shaped the educational challenges and 
constraints that American Indians face. Today, almost 28 
percent of American Indians aged 25 and over have not graduated 
from high school, compared with the national average of 15 
percent. And only 42 percent of American Indians pursue any 
form of higher education; 13 percent of whom attain a 
bachelor's degree or higher, half the national average. More 
than one-third of all American Indian students are 30 years or 
older, which puts them at risk for dropping out prior to 
earning a degree. At tribal colleges, entering students have 
family incomes that average less than $14,000, 27 percent below 
the Federal poverty threshold.
    Despite these significant obstacles, we know that investing 
in higher education results in widespread dramatic benefits for 
both individuals and the Nation as a whole. For example, 
American Indians with a bachelor's degree or higher earn almost 
four times as much as those who did not graduate from high 
school, and more than twice as much as those who hold a high 
school diploma. Participation in Federal welfare programs is 
there times less for those with a college education than for 
those who graduated from high school. Only about one-third of 
American Indian students who did not graduate from high school 
voted in the November 2004 election, compared to over half of 
those with a bachelor's degree or higher.
    Tribal colleges play an important role in workforce 
development and skills, and they emphasize areas that are of 
particular importance to the development of reservation 
communities, such as health services, primary and secondary 
education, and rural farm and business development. They offer 
a variety of social services for students and community 
members, such as family life and parenting courses, and 
domestic and community violence prevention programs.
    The very presence of tribal colleges on reservations 
encourages even further pursuit of post-secondary education, as 
evidenced by the fact that one-half of tribal college graduates 
continue their education.
    So investment in higher education through tribal colleges 
isn't just a nice thing to do for American Indians. It is a 
necessary step that is required to allow these colleges to 
serve the growing numbers of students who will contribute in 
significant ways to their communities and to our Nation.
    I urge the Committee, therefore, to focus on the following 
key Federal policy priorities. First, increase funding for the 
operating expenses of tribal colleges and increase the level 
authorized under the Tribal College Act. The current act 
allocates funding through a formula based on the number of 
Indian students enrolled. No funds are distributed for non-
Indian students, who make up 20 percent of total enrollment at 
these schools. In 2006, as prior witnesses pointed out, total 
funding per American Indian student was $5,001. Appropriations 
have never reached the authorized level of $6,000, and in fact 
have decreased by almost 30 percent after inflation. Future 
funding increases should be tied to inflation to ensure that 
student support does not decline.
    Second, improve the capacity of tribal colleges to serve 
students by increasing support for facilities and critical 
infrastructure needs. While many mainstream colleges and 
universities have benefited enormously from infrastructure 
support from the Federal Government, most that have received 
such support were created prior to the establishment of the 
first tribal college. Congress can correct this inequity by 
establishing a facilities and infrastructure equity plan to 
tribal colleges that provides a level of support that is 
comparable on a per-student basis to the sums available to 
other land grant institutions.
    Third, enhance the development of tribal colleges through 
increasing support under Title III of the Higher Education Act. 
Inexplicably, the President's 2008 budget proposed slashing 
funds for tribal colleges under title III by more than 20 
percent, an unprecedented cut. Given the enormous educational 
needs served by the tribal colleges, this must not stand. I 
urge the Committee to make title III funding for tribal 
colleges formula-based so that institutions do not have to go 
through the complex and time consuming task of developing 
detailed competitive proposals. I also recommend that the 
authorized level be increased to at least $40 million, and that 
the Committee work with appropriators to fund this section at 
its authorized level.
    These and other strategies targeted at tribal colleges and 
universities must be combined with broader Federal policies to 
assist low income educationally disadvantaged students. 
Increasing support for Pell Grants, the Federal TRIO Programs, 
and programs that are aimed at building the high order 
workforce skills of our Nation are essential to combat the 
challenges of limited college access and success for our 
Nation's growing emerging majority populations.
    As one of the main drivers of economic and social 
development for all American Indian communities, tribal 
colleges and universities are critical to the future success of 
these communities. I hope that you will continue the 
Committee's bipartisan history of support for tribal colleges, 
and act without delay to make these investments that are so 
critical to the future prosperity and security of American 
Indian communities. In so doing, our Nation will be 
strengthened and sustained for many generations to come.
    Thank you very much.
    [The prepared statement of Mr. Merisotis follows:]

  Prepared Statement of Jamie P. Merisotis, President, Institute for 
                       Higher Education Policy *
---------------------------------------------------------------------------
    * The Institute for Higher Education Policy (IHEP) is an 
independent, nonprofit organization that is dedicated to access and 
success in postsecondary education around the world. Established in 
1993, IHEP uses unique research and innovative programs to inform key 
decision makers who shape public policy and support economic and social 
development. The Institute's work addresses an array of issues in 
higher education, ranging from higher education financing to 
technology-based learning to quality assurance to minority-serving 
institutions.
---------------------------------------------------------------------------
    Thank you for this opportunity to appear before the Committee 
regarding the important topic of Tribal Colleges and Universities 
(TCU).
    The 110th Congress faces the ongoing challenge of promoting access 
to higher education for all Americans who have the interest and ability 
to attend college. Improving access to higher education continues to be 
one of the most important contributions that the Federal Government can 
make to our national well-being. For many American Indians, the path of 
educational attainment is one of many journeys, reflecting the complex 
challenges that face people who have been underserved by America's 
educational system for more than two centuries. That path may take 
students on an array of journeys through the postsecondary educational 
system: Tribal Colleges and Universities; mainstream institutions of 
higher education; adult education programs; associate's, bachelor's, 
and master's degrees; outreach and support programs; financial aid 
programs; and many others. Yet for many Native people, those journeys 
represent the best and most important opportunities available for 
cultural preservation and growth, social mobility, and economic 
prosperity.
    Today I will discuss some of the evidence that has been amassed 
about why investment in Native people matters to us as a society, and 
why the specific investment in Tribal Colleges and Universities brings 
enormous benefits both individually and collectively to Native people 
and communities. I also will discuss some of the most important 
strategies that you can pursue at the Federal level to make this 
investment pay off in economic, social, and cultural terms.
    The Institute for Higher Education Policy's acclaimed recent 
national report The Path of Many Journeys: The Benefits of Higher 
Education for Native People and Communities (made possible through the 
generous support of USA Funds, in collaboration with the American 
Indian Higher Education Consortium and the American Indian College 
Fund) has been provided in advance to the Committee. The report points 
out that a combination of historical, economic, social, demographic, 
and educational forces have shaped the challenges and constraints that 
American Indians face.
    Historical forces: For decades U.S. Federal policy toward Indian 
tribes was made without knowledge or consideration of the values of 
Native people themselves. In addition, educational curricula and 
teaching came from a Eurocentric-White perspective and completely 
neglected any mention of tribal ways of life.
    Economic and social forces: American Indians, especially those who 
live on reservations, are among the poorest groups in the country. 
Approximately 26 percent of the American Indian/Alaska Native 
population lives below the official poverty level, compared with 12 
percent of the total population. Factors such as geographic isolation, 
limited opportunities for upward mobility in rural areas and on 
reservations, and low labor force participation rates contribute to a 
continuous poverty cycle among American Indians. This poverty is often 
accompanied by a range of social problems--injuries and violence, 
depression, substance abuse, inadequate health care and prenatal health 
care, unhealthy or insufficient diets, and high rates of diabetes--that 
can greatly affect the ability and desire to pursue education.
    Demographic forces: The American Indian population has experienced 
tremendous growth, from 237,000 in 1900 to 4.3 million in 2000. An 
estimated 33 percent of this population is under the age of 18, 
compared with 26 percent of the total U.S. population. American Indians 
reside primarily in the Western part of the United States: 48 percent, 
compared with 22 percent of the total U.S. population. Currently, more 
than a third of American Indians live on reservations or in other 
American Indian Areas, with the remainder living in other communities. 
American Indians tend to be more rural, geographically isolated, and 
younger than the U.S. population as a whole.
    Educational forces: American Indian college enrollment more than 
doubled, from 76,100 in 1976 to 165,900 in 2002. An important reason 
for that growth was the advent of the Tribal College and University 
movement, which began in the late 1960s and has grown at an impressive 
rate over a nearly 40 year period. However, American Indians continue 
to have much lower educational attainment rates than persons from other 
racial/ethnic backgrounds. Almost 28 percent of American Indians age 25 
and over in 2004 had not graduated from high school, compared with the 
national average of 15 percent. Further, only 42 percent of American 
Indians pursued any form of higher education and 13 percent attained a 
bachelor's degree or higher, compared with 53 percent and 28 percent 
nationally.
    In addition, more than a third of all American Indian students are 
30 years or older, which puts them at risk for dropping out prior to 
earning a degree. Most (65 percent) are financially independent, 
compared to a national average of 50 percent. At TCU, entering students 
have family incomes that average $13,998, or 27 percent below the 
poverty threshold.
    Despite the significant obstacles that confront American Indians, 
we know that investing in higher education results in widespread, 
dramatic benefits to both individuals and the Nation as a whole, 
including higher rates of employment, less reliance on public 
assistance, increased levels of health, and a greater sense of civic 
responsibility. Figure 1 details some of the many benefits that result 
from such investments. For example, American Indians with a bachelor's 
degree or higher earn almost four times as much as those who did not 
graduate from high school, and more than twice as much as those who 
hold a high school diploma. Further, the more education that is 
attained, the less likely it is for individuals to rely on public 
assistance programs. Participation in Federal welfare programs is three 
times higher for those with a high school degree compared to 
individuals with a bachelor's degree or higher.
    A number of social benefits also correlate with postsecondary 
education attainment. For example, 88 percent of American Indians with 
a bachelor's degree or higher said they were in ``excellent, very good, 
or good'' health, compared with 73 percent of those without a high 
school diploma. Only about a third of American Indians who did not 
graduate from high school voted in the November 2004 Presidential 
election, compared with over half of those with a bachelor's degree or 
higher.

 Figure 1: Benefits resulting from higher education in general and from
                           TCU on reservations
------------------------------------------------------------------------
                                                          Particular to
                       Private             Public         Reservations
------------------------------------------------------------------------
Economic         Higher Salaries and  Increased Tax     Workforce and
                  Benefits             Revenues          Skills
                                                         Development
                 Employment           Greater           Greater
                                       Productivity      Opportunities
                                                         for Leadership
                                                         and Small
                                                         Businesses
                 Higher Savings       Increased         Economic Growth
                  Levels               Consumption       and Development
                 Improved Working     Increased         Employment for
                  Conditions           Workforce         Graduates on
                                       Flexibility       Reservations
                 Personal/            Decreased         Agriculture and
                  Professional         Reliance on       Land
                  Mobility             Government        Development
                                       Financial
                                       Support
------------------------------------------------------------------------
Social           Improved Health/     Reduced Crime     Mitigation of
                  Life Expectancy      Rates             Social Problems
                 Improved Quality of  lncreased         Centers for
                  life for Offspring   Charitable        Preservation of
                                       Giving/           Culture,
                                       Community         Language and
                                       Service           Traditions
                 Better Consumer      Increased         Provision of
                  Decision Making      Quality of        Further
                                       Civic Life        Educational
                                                         Opportunities
                 Increased Personal   Social Cohesion/  Technology
                  Status               Appreciation of   Transfer
                                       Diversity
                 More Hobbies and     Improved Ability  Community
                  Leisure Activities   to Adapt and      Programs
                                       Use Technology
------------------------------------------------------------------------

    TCU and other nearby colleges contribute to the economic 
development of reservations. Despite persistent unemployment in 
reservation communities, graduates from TCU are employed at encouraging 
levels--for example, in one survey, 60 percent of alumni were employed 
outside the home, in the military, or self-employed. TCU also play an 
important role in workforce and skills development, and they emphasize 
areas that are of particular importance to the development of 
reservation communities, such as health services, primary and secondary 
education, and rural farm and business development.
    Students at TCU, as well as the colleges themselves, contribute to 
the social health of reservation communities. The goals and activities 
of the colleges and their students translate into direct benefits to 
communities, such as the provision of social services, the preservation 
of language and tradition, and the encouragement of educational 
opportunities. TCU offer a variety of social services for students and 
community members, such as family life and parenting courses and 
domestic and community violence prevention programs. In addition, the 
very presence of TCU and college graduates on reservations encourages 
postsecondary educational attainment in these communities. About one-
half of TCU graduates continue their education, and of those, over 86 
percent pursue a bachelor's degree.
    Thus, investment in Native American higher education through TCU 
and other postsecondary institutions is not just a nice thing to do for 
American Indians. It is a necessary step that is required to allow TCU 
to serve the growing numbers of students who will contribute in 
significant ways to their communities and to our Nation.
    I therefore urge the Committee to focus on the following key 
Federal policy priorities that will greatly improve the postsecondary 
educational prospects of American Indians.
Recommendations
Increase funding for the operating expenses of Tribal Colleges and 
        Universities and increase the level authorized under the 
        Tribally Controlled College or University Assistance Act of 
        1978 (TCCUAA).
    TCU are in a unique funding situation. States have no obligation to 
provide funding for TCU because of their location on Federal trust 
territory. At the same time, the Federal trust territory status 
prevents the levying of local property taxes, which are often used to 
support community colleges elsewhere in the United States. Thus, the 
main source of funding for the TCU is the U.S. Government. This puts 
TCU in a unique category of institutions that includes only the U.S. 
military academies, Howard University, and Gallaudet University. 
According to treaty obligations and the trust responsibility between 
the sovereign Indian tribes and nations and the United States, the 
Federal Government is bound to provide funding for American Indian 
tribes for a variety of programs, including higher education.
    The TCCUAA currently allocates funding to 24 of the TCU through a 
formula based on the number of Indian students enrolled (called the 
Indian Student Count or ISC). No funds are distributed for non-Indian 
students, who make up 20 percent of total enrollments at these schools. 
In 2006, the total funding per American Indian student provided under 
TCCUAA was $5,001. Appropriations have never reached the authorized 
level of $6,000 per student. Despite increases in total appropriations, 
funding per Indian student has increased only slightly since 1981 (by 
only $1,616 over a 26 year period) and, in fact, has decreased by 
almost 30 percent when inflation is considered. Future funding 
increases should be tied to inflation to ensure that support for 
students at TCU does not decline and therefore negatively impact the 
ability of the colleges to effectively serve American Indian students.
Improve the capacity of TCU to serve students by increasing support for 
        facilities and critical infrastructure needs.
    In 1994, 29 TCU were awarded land-grant status in Federal 
legislation. As land-grant institutions, these TCU have the right to 
receive resources that can be invested in additional faculty or 
equipment to conduct agricultural research, either independently or in 
collaboration with 4-year institutions. The 1996 White House Executive 
Order on Tribal Colleges and Universities aims to more fully integrate 
the colleges into Federal programs and reaffirms their important role 
in reservation development by directing all Federal departments and 
agencies to increase their financial support to the colleges. However, 
only modest sums that have been invested in TCU have been allocated for 
facilities construction and improvement. While many mainstream colleges 
and universities have benefited enormously from infrastructure support 
from the Federal Government, most that have received such support were 
created prior to the establishment of the first TCU. Congress can 
correct this inequity by establishing a facilities and infrastructure 
equity plan for TCU that provides a level of support that is comparable 
on a per-student basis to the sums available to the other land-grant 
institutions.
Enhance the development of TCU to better serve students through 
        increased support under Title III of the Higher Education Act.
    Part A, Section 316 of the Higher Education Act provides vital 
services to the growing number of TCU and the students they serve. 
These funds are used to support basic enhancements to curriculum, 
faculty development, and some infrastructure costs. Inexplicably, the 
President's 2008 Budget proposed slashing funds for TCU under Title III 
by more than 20 percent--an unprecedented cut. Title III represents an 
important opportunity for TCU to assist in their academic development. 
This funding is similar in scope to funds made available to other 
institutions with low average revenues, including many mainstream two- 
and 4-year colleges as well as Historically Black Colleges and 
Universities and Hispanic-Serving Institutions. Only funding for TCU 
was cut under Title III in the President's Budget (funding for other 
developing institutions was level funded and also disappointing). I 
urge the Committee to focus on two key issues to aid in institutional 
development at TCU under Title III. First, make funding for TCU under 
Section 316 formula-based so that institutions do not have to go 
through the complex and time-consuming task of developing detailed 
competitive proposals. All TCU have major development needs and should 
be recognized with support based on their FTE enrollments. Second, 
increase the authorization level for Section 316 funds to at least $40 
million and use the Committee's leverage with appropriators to fund 
this section at its authorized level.
    These and other strategies targeted at the unique circumstances of 
Tribal Colleges and Universities must be combined with broader Federal 
policies to assist low income, educationally disadvantaged students. 
Increasing support for Pell Grants, the Federal TRIO programs, and 
programs that are aimed at building the high-order workforce skills of 
our Nation (such as the Minority Science and Engineering Improvement 
Program) is essential to combat the challenges of limited college 
access and success for our Nation's growing emerging majority 
populations.
    Low college access and degree achievement rates have been a 
persistent problem for American Indians, the result of decades of 
neglect, marginalization, and discrimination. As one of the main 
drivers of economic and social development for all American Indian 
communities, Tribal Colleges and Universities are critical to the 
future success of these communities. I urge you to continue the 
Committee's bipartisan history of support for TCU and act without delay 
to make these investments that are so critical to the future prosperity 
and security of American Indian communities. In so doing, our Nation 
will be strengthened and sustained for many generations to come.
    Thank you again for this opportunity to appear before the Committee 
on this important issue.

    The Chairman. Mr. Merisotis, thank you very much. Those 
were some very interesting statistics you have compiled and 
offered this Committee.
    Dr. Bette Keltner is the Dean of the School of Nursing and 
Health Studies at Georgetown University. Dr. Keltner, thank you 
very much for being with us. You may proceed.

  STATEMENT OF DR. BETTE KELTNER, DEAN, SCHOOL OF NURSING AND 
             HEALTH STUDIES, GEORGETOWN UNIVERSITY

    Ms. Keltner. Thank you so much.
    Good morning, Mr. Chairman and Members of the Committee. 
Thank you for this opportunity to address the Committee 
concerning tribal colleges and universities.
    I am Bette Keltner, not from a tribal college, but on 
behalf of Georgetown University School of Nursing and Health 
Studies, to support this community. We at Georgetown NHS do 
offer bachelor of science and master's degrees across a variety 
of programs, nursing of course, human science, health systems, 
and international health.
    Our school also is co-founding with Georgetown Law Center 
the O'Neill Health Law Institute. I am a member of the Cherokee 
Nation and have decades of experience supporting American 
Indians and Alaska Natives. I served two terms as President of 
the National Alaska Native American Indian Nurses Association, 
and I am an active member of the Society for the Advancement of 
Chicanos and Native Americans Into Science.
    My interest and involvement in science spans a variety of 
industries. I have also been on the production side of the 
economy as a corporate officer for Honda of America 
Manufacturing before coming to Georgetown in 1999. I would echo 
Elmer Guy's support for the importance of investment in human 
assets. As one of the auto manufacturers' success stories in a 
material business, the competitive edge is given to those who 
can manage the human assets. It is true that we have evidence 
from today that tribal colleges and universities have 
experience in developing and supporting the human assets for 
American Indians.
    Today, I would like to focus my comments on the importance 
of science and technology at TCU, and the need to further 
collaboration between TCU and major research universities to 
advance these fields of study as a means of promoting health 
and well being.
    Certainly, we are familiar with the fact that the Bureau of 
Labor Statistics' projections for the year 2014 are that 
professional and science-related occupations will be the 
fastest growing segment of the labor market, forecasted with 
over a 20-percent increase in the coming years. We are all 
familiar with the fact that the fields of science, technology 
and health care are experiencing explosive growth.
    It is also clear that the economy and individual and 
community well being are dependent upon the new world that we 
live in, and science and technology open these doors.
    It is certainly tragic that the American Indian culture so 
rooted in traditions associated with nature, that has given us 
the great first steps in pharmacotherapy with the introduction 
of aspirin, have fallen behind in participation with their 
natural affinity for sciences, and particularly life sciences. 
In talking to several presidents of TCU, it has become clear 
that the lack of science faculty and their preparation is one 
of the things that contributes to this gap. This fact creates a 
barrier for Indian students who would wish to participate in 
the most rapidly growing segment of the economy.
    There are some bright spots. Certainly, we have heard that 
today, for example, with the energy initiative. We have also 
become familiar with the Navajo Technical College and the good 
work they have done. I would point to their Hogan Project that 
ensures that technology and computer skills are brought to bear 
and can afford students, as well as faculty and the community, 
important growth in education and economy.
    TCU are challenged because students often come needing 
remediation. This is even more important that we have science 
faculty and education.
    I would propose that as we examine the ways to do this 
efficiently, that we take a look at what Mr. Thomas has said 
earlier, about leveraging partnerships. As a former resident of 
Wyoming, I was particularly pleased that he made my point in 
starting this.
    I would suggest that we do envision those opportunities, 
and we have heard some examples, for partnerships between TCU 
and major universities, but particular major research 
universities, as having leveraging benefits. These benefits 
include research collaboration, student services, educational 
pipeline programs, and a unique perspective that would enhance 
cultural competence in a range of fields that include 
informatics, life sciences, public health, nursing, social 
work, medicine, and linguistics.
    To point to an example, I would say that two summers ago, 
Stacy Phelps, the science educator at Oglala Lakota College, 
and we have seen pictures demonstrating their great vitality, 
visited my office at Georgetown University. One of his roles is 
to get more students interested in pursuing science. Their 
capacity has some limitations, and they have been innovative in 
deploying what they can do through a partnership with South 
Dakota School of Mines and Technology to address some of those 
limitations. That collaboration is a good thing, but could be 
further advanced with partnerships with research-intensive 
universities, especially those with life sciences.
    We had at that time 16 students from Pine Ridge who have 
come over the summers as high school enrichment programs, 
students who are primed to have their appetites whetted for 
science. Stacy Phelps and I sat in a room with great enthusiasm 
and ideas about the desirable goal, and just the limitation of 
those opportunities to get together and move an idea forward.
    As we know, science learning is a long continuum. We have 
heard the importance of students being prepared from early 
education through elementary school, high school, and of course 
college. This continuum is even more important in science. We 
cannot expect students to drop in on page 85 and understand the 
content. They must learn it from page one or they are lost.
    At Georgetown School of Nursing Health Studies we have had 
Pathways to Success, which leverages another dimension that 
major research universities can bring to a partnership with 
TCU. This project bringing high school students to the 
Georgetown campus for life science study began with startup 
money from Goldman Sachs Foundation, QUALCOMM and FedEx. 
Pathways is an initiative to enhance interest in academic 
preparation for high school students who are prepared to attend 
college and to instill in them both the skills and the interest 
in life sciences.
    At research universities, we can also introduce students to 
destinations and to opportunities. One of the things that 
connects the activities is that the Imaging Science and 
Information Center at Georgetown University, with the help of 
Senator Conrad, has been implementing an internet-based 
diabetes management program focused specifically on American 
Indian populations. I have served on the board of this group 
since its inception. The success in managing diabetes at these 
remote locations has been remarkable. We can also do testing at 
a distance of (B)(1)(c) and get a real sense of the progress.
    The Chairman. Dr. Keltner. I am going to have to ask you to 
summarize the remainder of your testimony if you would.
    Ms. Keltner. The remainder of my testimony is that I would 
support the continued support for TCU, and that as we look 
forward to the vitality of this capacity, that we encourage 
investment in science education and look to potential 
collaborations for TCU in research-intensive universities.
    Thank you.
    [The prepared statement of Ms. Keltner follows:]

 Prepared Statement of Dr. Bette Keltner, Dean, School of Nursing and 
                 Health Studies, Georgetown University
    Good morning, Mr. Chairman and Members of the Committee, and thank 
you for this opportunity to address the Committee concerning tribal 
colleges and universities (TCU).
    I am Bette Keltner, dean of Georgetown University School of Nursing 
and Health Studies (NHS). We offer bachelors and masters degrees of 
science in Health Systems, Human Science, International Health and 
Nursing. Our school also operates, in partnership with Georgetown 
University Law Center, the Linda and Timothy O'Neill Institute for 
National and Global Health Law.
    I am a member of the Cherokee Nation and have decades of experience 
supporting American Indian and Alaska Natives. I served two terms as 
president of the National Alaska Native American Indian Nurses 
Association and am an active member ofthe Society for Advancement of 
Chicanos and Native Americans in Science.
    My interest and involvement in science spans a variety of 
industries. I have also been on the production side of the economy as a 
corporate officer for Honda Mfg before coming to Georgetown University 
in 1999.
Role of Tribal Colleges and Universities
    The important role of TCU in education and their contributions to 
their communities has been well documented and discussed.
    Today, I would like to focus my comments on: (1) the importance of 
science and technology at TCU and (2) the need for further 
collaboration between TCU and major research universities to advance 
these fields of study as a means of promoting the public's health and 
well-being.
    According to 2005 Bureau of Labor Statistics projections for the 
year 2014, professional and related occupations will be the fastest 
growing segment of the Labor Market by 21.2 percent over the coming 
years.
    I am sure we all understand that fields in science, technology, and 
health care are experiencing disproportionate growth.
    It is clear that the economy and individual and community well-
being are dependent upon the new world that we live in where science 
and technology open doors.
    Investment in the sciences has worked in various cultures, 
including in countries like Ireland that currently has a low 
unemployment rate and high standard of living.
    It is certainly tragic that the American Indian culture--which is 
so close to nature--has never adequately translated that love to life 
sciences, science, and technology.
    In talking to several presidents of TCU, it became clear they lack 
science faculty and preparation. This fact creates a barrier for Indian 
students who wish to participate in most things that science allows us 
to do.
    There are some bright spots, however.
    A review of recent issues of the Tribal College Journal of American 
Indian Higher Education highlights some examples where TCU programs in 
science and technology are serving the greater interests of American 
Indians and their communities.

  <bullet> The Native Grass Project at Haskell Indian Nations 
        University in Kansas focuses its research on switch grass--a 
        warm season, perennial grass found throughout the United States 
        with biofuel potential. The program will help identify the 
        attributes desirable for the revitalization and expansion of 
        the grass for future use by Native people and for the 
        restoration of Army installation lands.

  <bullet> In New Mexico, the Navajo Technical College has partnered 
        with Navajo Nation on the Internet to implement the Hogan 
        Project. The project will ensure technology is an integral part 
        of the Navajo community development in education, health care, 
        public safety, and economics. The project will bring 
        supercomputing capabilities to research and education projects 
        at the college and allow integration with other research and 
        computing facilities such as the University of New Mexico. E-
        Learning programs will bring advanced collaborative education 
        models to remote communities.

    This sampling highlights a fertile ground in the area of science 
and technology at TCU. As American Indian communities seek to address 
their educational, economic, and health needs, the importance of 
science and technology and collaboration grows.
    Yet, TCU are challenged because students are not well-prepared. 
Their ability is limited to offer strong education in life science, 
science, and technology because of faculty who lack depth in these 
fields and a remote location.
    I propose that we look to unite resources from major universities 
to address this problem.
University Collaboration with TCU
    Partnership between TCU and major universities with strong research 
programs can have wide-reaching benefits.
    Those benefits include research collaboration, student service 
opportunities, educational pipeline programs, and a unique perspective 
that would enhance cultural competence in a range of fields, including 
informatics, life sciences, public health, nursing, social work, 
anthropology, medicine, and linguistics.
    Today, I want to talk about start-up opportunities at Georgetown 
University.
    Two summers ago, Stacy Phelps, the science educator at Oglala 
Lakota College, visited my office at Georgetown University. One of his 
roles there is to get more students interested in pursuing science.
    The college's capacity is limited. Faculty members at this TCU lack 
a depth in the sciences. The college has begun a partnership with South 
Dakota School of Mines and Technology to begin addressing this 
shortcoming.
    That collaboration is a good thing. However, it will not provide 
the strong base in science that these students would encounter at a 
research intensive university.
    So Stacy Phelps and I sat in my office with a well-known problem, a 
desirable goal, and a great deal of enthusiasm.
    With seed money, we could have launched a substantive program that 
would leverage the strengths of OLC and South Dakota School of Mines 
and Technology, as well as the major scientific and research capacities 
of Georgetown University.
    But none existed.
    As we know, science learning is a long continuum, from early 
education through college and beyond. Students cannot drop in on page 
85 of a science textbook and be expected to understand the content. 
They have to learn it from page one. Or else they are lost.
    One project we launched at the School of Nursing and Health Studies 
is ``Pathways to Success.'' We have begun this effort with start-up 
funding from the Goldman Sachs Foundation, QUALCOMM, and FedEx.
    Pathways is an initiative designed to enhance the interest and 
academic preparation of underserved high school students. A goal is for 
students to attend college and pursue careers in biomedical science, 
life science, health care, and technology.
    Between 2003 and 2006, 16 high school students from the Oglala 
Lakota tribe of the Pine Ridge Reservation in South Dakota 
participated.
    Such a program whets the appetite of these students for science and 
technology. With seed money, we could capitalize on these initial 
investments and develop a stronger partnership with TCU to offer 
students even greater exposure to a top-tier research institution.
    At research intensive universities, students can be exposed to 
state-of-the-art science, such as the Imaging Science and Information 
Systems Center at Georgetown University Medical Center.
    Over the last several years, the Center--with the help of Senator 
Conrad--has been implementing an Internet-based diabetes management 
program focused specifically on American Indian populations. It also 
holds potential for expansion through partnerships with Tribal 
Colleges.
    In the area of education, the School of Nursing and Health Studies 
participates in the Association of American Indian Physicians' National 
Native American Youth Initiative.
    This is an academic enrichment and reinforcement program designed 
to prepare American Indian and Alaska Native high school students for 
admission to college and professional school and to encourage them to 
pursue a career in the areas of health science and biomedical research.
    These students are hosted at Georgetown for a half-day where they 
hear a faculty lecture and view the Georgetown University Simulator 
(GUS)--a full-body, robotic mannequin that can realistically replicate 
a human patient in a clinical setting. In addition, our Admissions and 
Outreach staff at NHS conducts a 2-hour seminar with the students that 
focuses on the college admissions process.
Bettering, Building The Relationship
    For various reasons--including health, education, and workforce--it 
is clear that a solid grounding in science and technology is a missed 
opportunity for American Indians. I have discussed the potential that 
TCU themselves hold.
    But clearly this is just a beginning. In terms of a well-trained 
workforce, sustainable jobs, and addressing tribal needs, American 
Indian Nations require more Indians and Indian youth, in particular, to 
pursue education in the sciences and technology. TCU hold a key to 
achieving that goal, particularly through collaboration with research 
intensive universities.
    These collaborations require dedication at the ground level, as 
well as external funding and a smart sustainable framework that allow 
programs to flourish.
    Congress could catalyze such collaboration by brokering 
partnerships between TCU and research intensive universities--through 
Federal funding of pilot projects and national centers of excellence. 
Adding competitive advantages for collaboration between TCU and 
universities to the proposal process for existing grant programs would 
also encourage increased collaboration to build scientific and 
technological bridges.
    I thank you again for giving me the time to address this issue of 
consequence, as well as for your work on behalf of American Indian and 
Alaska Native communities. I am happy to respond to any questions that 
Members of the Committee might have.

    The Chairman. Thank you very much, Dr. Keltner, for your 
perspective on these issues. This is an interesting panel, and 
there are some very interesting perspectives on this very 
important issue.
    It seems to me, hearing from the four of you, that there is 
a consensus that there needs to be a better funding source for 
tribal colleges. Senator Tester made the point, and I think it 
is an accurate point as well, that just an adequate funding 
source for the students that are coming in, the increase in 
students, is not in itself sufficient either because you have 
to have an infrastructure program to build the buildings and 
complete the campuses and so on, and to deal with those issues 
that are present at every college.
    Dr. Gipp, for example, at your college, you have inherited 
some very old buildings in a very nice campus setting, but very 
old buildings that I assume require a substantial amount of 
repair. Tell us just a bit about the infrastructure problems.
    Dr. Gipp. Well, as you know, we occupy an old military 
fort. It is a good case of the Indians taking over the fort in 
this case for peaceful and educational purposes. But our core 
buildings are about 105 years old. Fort Abraham Lincoln is what 
it was called. We have added other buildings, classrooms and 
some labs, but we have a major, major need for new classroom 
space as well as new housing, because we are campus-based. We 
have gone from roughly 375 students several years ago to close 
to 1,100 or 1,200 students this year. That will continue to 
grow, as I talked about earlier, as is the case with Navajo 
Technical College and the other schools.
    So that issue of both maintaining as well as building new, 
and addressing the new problems, but maintaining what you have, 
is very, very critical.
    The Chairman. Mr. Guy, with respect to your request for the 
authorization language, was your college also funded in 
previous Presidential budget requests prior to the year 2000?
    Mr. Guy. Yes, Mr. Chairman; we have been in the funding 
before.
    The Chairman. And were you told any reason that the funding 
was dropped, beginning with the current Administration?
    Mr. Guy. Yes; the explanation that we received is that we 
were not authorized as one of the colleges under the 
legislation, the American Higher Education Act.
    The Chairman. Mr. Merisotis, your data that you presented 
is especially gripping with respect to this shortfall on 
funding, the dramatic increase in the number of students that 
have come into the system, which describes the popularity of 
the tribal college system offering something that had not been 
previously an opportunity for many of these students, many of 
whom, you say, are nontraditional students. You indicated that 
one-third of the students are over years of age?
    Mr. Merisotis. Correct. Yes; the tribal colleges are one of 
the great untold success stories in American higher education. 
We tend to look at the funding challenges of the tribal 
colleges, which are severe. We at times may view them in a sort 
of deficit mentality. In fact, what tribal colleges have been 
able to do with such limited resources is really extraordinary. 
An example of that is the way that they are serving these 
nontraditional students. But I think a broader example is the 
way that the tribal colleges have become community resources, 
community centers in terms of tribal languages, economic 
development, and social services. They really play an enormous 
role in these communities, well beyond what you see in an awful 
lot of other mainstream institutions of higher learning.
    I think one of the most important things from the 
perspective of the tribal colleges is that the tribal colleges 
are absolutely dependent on the Federal Government for 
operating support. We do have the important issue of 
infrastructure, which is outside of the operating expenses that 
we need to concentrate on. But remember that the operating 
support of the tribal colleges cannot come from the States for 
the reasons that you pointed out in your prior comments and 
cannot come from the levying of local property taxes. It must 
come from the Federal Government in terms of the Federal trust 
responsibility.
    I think that in that sense when I try to describe to 
individuals in mainstream higher education about the role of 
the tribal colleges, I say the Federal Government plays the 
same role to tribal colleges that the State plays to public 
institutions of higher education. The difference is that in no 
State in the Country would a public higher education 
institution stand for the level of uncertainty that exists in 
terms of basic operating expenses. Their existence is literally 
annually threatened because of the uncertainties of the funding 
process. I think that is something that really needs to change 
and be stabilized over time.
    The Chairman. Well, you have described the dilemma that 
most tribal college presidents would tell you is a very serious 
problem their offices address all year long, trying to 
determine what kind of student support will I get; what kind of 
funding will I get that provides the opportunity for me to 
continue to run this college.
    One of the things that I am hoping we can do in the 
Committee on Indian Affairs is to begin to describe the success 
of this system, even with those challenges. We should not 
apologize for holding up a student to say, as Dr. Gipp did, he 
described a student that everybody had given up on, who was now 
a very significant success. We should never shy away from that. 
These success stories are very important for people to 
understand the conditions under which those who otherwise could 
not get a college education have not only gotten a college 
education, but been able to use that to do that something very 
significant in their communities.
    So I am hoping that we can begin to gather more and more 
anecdotal information from these colleges about these success 
stories. I think that is a story, the untold story, as you 
describe it, Mr. Merisotis.
    I am going to turn the questions to Senator Tester and ask 
him to complete the hearing. I have to be on the floor and then 
we have votes that will begin momentarily, but I have to be on 
the floor at 10:45. So I will call on Senator Tester. Let me, 
as I do, thank all four of you for being here today. We 
consider the health, education and housing issues to be very 
significant issues that represent a priority for this Committee 
in the Indian nations. So this is one part of that today, the 
issue of tribal colleges, something that I have very 
significant and strong interest in. This Committee will play a 
significant role in the reauthorizations. We also will play, as 
I will play on the Interior Appropriations Subcommittee, a 
significant role on the funding side as well. I thank all four 
of you.
    Senator Tester.
    Senator Tester [presiding]. Yes; thank you, Mr. Chairman.
    I guess I will ask you, Dr. Guy or Dr. Gipp, and I will 
just make the assumption that both UTTC and Navajo Tech, the 
reason they were able to survive is because Congress stepped in 
and put money toward them. Is your funding level the same at 
the $5,000 figure? What did they use for funding level for you?
    Dr. Gipp. We don't operate under a current formula right 
now. It has been basically what Congress has been able to 
provide to us, as opposed to really no policy by the BIA in 
regard to the two institutions you just mentioned. So we are 
left to the whim and the will, if you will, of what the 
Administration has said, which is zero request at this point in 
time. You are correct that the Congress has intervened and 
restored those funds. The operating funds under the Interior 
Appropriations for United Tribes are a little less than $3.5 
million and I believe about $1.7 million for Navajo Technical 
College annually from the Interior-BIA side of the operating 
dollars.
    Senator Tester. Did you guys do something to tick off the 
Administration?
    [Laughter.]
    Dr. Gipp. We don't know. At least I don't know, and maybe 
President Guy has another story on this. But as I say, the OMB 
fellow said hey, until you are somebody's favorite, you are not 
going to get financed.
    Senator Tester. It is a situation we will have to deal 
with, it appears, again.
    Mr. Merisotis, you talked about enhancing title III support 
and making it formula based. Are you talking so much per 
student? What kind of formula did you have in mind?
    Mr. Merisotis. Well, formula meaning that each college 
would not have to go through a complicated competitive annual 
process each year, much like is done, for example, in funding 
for Historically Black Colleges and Universities, also under 
title III, part B, where there is a formula based on the 
students that are enrolled and then resources are allocated 
based on the student enrollments.
    It seems like this sort of annual competitive process that 
the colleges have to go through is not very productive.
    Senator Tester. I understand.
    Mr. Merisotis. They have limited staff to do this kind of 
work, and I would much rather see them focusing those staff on 
academic issues, rather than on these competitive grant 
processes. They have significant need for all of them.
    Senator Tester. Right. Then you talked about a facility 
improvement line item, if that is the proper term. If you were 
in a position of power, how would you structure that?
    Mr. Merisotis. I would look at the funding that is already 
allocated to the other land grant institutions of higher 
education that have been around for many years, the tribal 
colleges gained land grant status in 1994, and provide support 
that is comparable on a per-student basis to the land grant 
support. I don't know what that exact number is right now, but 
it seems like the support that the tribal colleges should get 
as land grant institutions should be comparable to the support 
that other institutions receive.
    Senator Tester. OK. And then in the last question, and I 
will start out with Dr. Keltner, but you can all answer this. I 
don't mean to be negative toward the tribal colleges at all, by 
the way. I think they do a great job and they are a great hope 
for economic development in Indian country. Make no mistake 
about it. But the dropout rate is something that concerns me.
    I have a couple of questions. Does it concern you? Is it 
something we need to be concerned about? And number two, if you 
are concerned about it, what do you attribute it to? And what 
do you think we can do to help reduce it?
    We will start with Dr. Keltner, and any of the rest of you 
can respond to that if you would like. It is your choice. The 
reason I direct it at you is because of the collaborative 
efforts of you. I assume that you work with a number of 
schools. So go ahead.
    Ms. Keltner. That is correct, Mr. Tester. The graduation 
rate certainly is a concern, and the preparation for a 
competitive market is generally very good. I speak to one 
partnership that we have initiated in working with Sisseton-
Wahpeton College, where the pass rate for nurses was a total 
failure, 100 percent failure. The things that can be done at a 
distance can be leveraged with certain types of collaborations.
    We must beef up the faculty in those particular areas. I 
know recruitment, hiring and retention is on the minds of 
college presidents always, and we have people who can speak to 
that. To the extent that we use our entire social capacity of 
having collaborations, I think we can enhance the achievements 
of students who do make it to tribal colleges and universities.
    Mr. Merisotis. I would push back a little bit on your 
question about dropouts, simply because the complex life 
circumstances of so many students in the tribal colleges means 
that they are going to be involved in what the economic 
researchers called ``swirl,'' which is they come in, they go 
out, they come in, they go back, they have child care, they 
have family responsibilities, they have work, et cetera.
    So when we say ``dropout,'' I am not sure what measure we 
are really talking about. In terms of mainstream colleges, the 
typical time that it takes to get a degree, certainly that is 
true. But the tribal colleges, as I pointed out, are enormous 
community-based resources. A lot of the individuals stay 
connected to their communities through the tribal college. 
Tribal colleges are providing GED training. They are providing 
health care services, diabetes education, et cetera.
    So there are a variety of things where the tribal colleges 
are serving as community resources, and these students come in 
and out. An awful lot of the tribal college students we have 
learned through a project that AIHEC has called the American 
Indian Measures of Success, are actually successful in many 
other ways beyond that narrow definition of a dropout rate.
    Senator Tester. You bring up a good point. I think we need 
to keep in mind that you don't necessarily need to have a 
degree to have a good job or be successful, family wise or 
otherwise. So that is a good point.
    Dr. Gipp. Senator, you mentioned the dropout rate. I think 
about 80 percent to 90 percent of our population from pre-K 
through 12 are in public school systems, by the way. That is 
where the severe dropout rate is occurring, when we talk about 
that. What happens, though, is that we take those young adults 
that are coming out of those systems, sometimes dropping out, 
and many of our tribal colleges are providing the adult 
education programs so they can get the GED, so they can get 
into the post-secondary system. That is where I think we come 
in, at the points that Mr. Merisotis has pointed out, in terms 
of providing those community services to support them so that 
they can be successful.
    The evidence shows that really when our students go through 
a tribal college system, they are going to be far more 
successful, not only graduating from our system, but also it 
increases their ability to be successful in the mainstream 
institutions that they graduate to in terms of other 
universities or colleges that we referred to in terms of those 
partnerships. So there is really the crux of what we do in 
terms of turning that around. Unfortunately, it comes at the 
later stage of life than those who initially drop out.
    Senator Tester. Dr. Guy, did you want to respond?
    Mr. Guy. Yes, Senator; I guess back home we call the 
dropout rate sometimes ``step out.'' Sometimes they step out 
and then they step back into the school. What we are doing is 
we are looking at dual credit programs, to where we want to 
enroll them while they are still in high school, and then we 
give them credit when they come to our school, and then they 
have already earned some college credits. Everything that we 
are doing is we are training high school teachers in math and 
science to use technology in their curriculum, and more 
effectively use technology.
    Senator Tester. That is good. I want to do whatever we can 
do to help facilitate your success. I need to make that clear. 
I think that when you look at the at-risk thing that I brought 
up with Carl Artman, with Native American students, I don't 
want to put too much pressure on you, but I think you are 
really the key to stop that and to turn that around, and to 
really help those students in K-12. I really firmly believe 
that. I don't think a solution will come out of conventional 
colleges, or it would have already.
    The other issue that I don't want to saddle you with, but 
it is the truth, and I think there is a tremendous opportunity 
for tribal schools in reducing the unemployment rate. 
Education, as we all know, is the key to economic development. 
We just need to make sure that you folks have the ability to be 
successful, to help turn that around. That would save us all 
just a whole lot of heartache.
    So yes, did you want to respond?
    Dr. Gipp. I was just going to point out, too, along the 
line that you are talking about, the issue of economic 
development and infrastructure development in our tribal 
communities. I really think that one of the major oversights by 
the BIA in the past 25 years has been not looking at our human 
resources and what our needs are. We really need to have a 
major assessment, if you will, study where our human resources 
are and what we can then do. That means some additional 
research that needs to be invested in this area to do 
successful things like economic development. There is no 
question that the tribal colleges can and do play a very 
important part where they are located on the issue of business 
and economic development, and answering that question of 
unemployment.
    Because you look at Standing Rock where I am from, and you 
have unemployment that ranges from a low of 50 percent or 55 
percent, to a high of 97 percent unemployment. We need to do 
something about that. I think that tribal colleges are a 
wonderful example of that, Senator.
    Senator Tester. Yes; absolutely.
    With that, I want to thank the panel for being here today. 
I think it was a very, very good hearing and very enlightening. 
I appreciate your time.
    With that, this Committee is adjourned.
    [Whereupon, at 10:55 a.m., the Committee was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Kent Conrad, U.S. Senator from North Dakota
    Thank you, Chairman Dorgan for holding this important hearing. I 
want to also welcome Dr. David Gipp, President of United Tribes 
Technical College here today.
    I am a strong believer in the tribal colleges. The tribal colleges 
bring hope and opportunity to thousands of Native Americans across the 
country. Tribal colleges serve young people preparing to enter the job 
market, dislocated workers learning new skills, and people seeking to 
move off welfare.
    I am particularly proud to serve as Co-Chair, along with Senator 
Domenici, of the Senate Bipartisan Task Force on Tribal Colleges and 
Universities. The task force works to raise awareness of the important 
role the colleges play in their respective communities and advance 
initiatives to help improve and expand the quality education they 
provide.
    Over the years, I have met with many tribal college students, and I 
am always impressed by their commitment to their education, their 
families and communities. I am a fighter for the tribal colleges 
because I know how critical they are to progress and growth in Indian 
country.
    This year, the President proposed a budget that cuts funding for 
tribal colleges. It also eliminates all funding for United Tribes 
Technical College and Navajo Technical College. Tough budget choices 
must be made, but I can think of no worse choice than cutting funding 
for the tribal colleges.
    While annual appropriations for tribal colleges have increased in 
recent years, core operational funding levels are still only 75 percent 
of the $6,000 authorized per Indian student count. Funding is not even 
keeping pace with rising student enrollments. Since 1981, enrollments 
have increased by more than 330 percent.
    It is also not keeping pace with inflation. It would require $6,304 
per Indian student, $300 more per student than the current authorized 
level, for the tribal colleges to have the same buying power as they 
had in 1981.
    It is important for Congress to do all it can to support their 
incredible work and look for opportunities to help them expand and 
grow. Tribal colleges make a difference and deserve our support.
    Again, thank you Mr. Chairman for holding this hearing. I look 
forward to the testimony of the witnesses.

                                  <all>

</pre></body></html>
